<html>
<title> - HEARING TO EXAMINE THE CURRENT SITUATION REGARDING THE DISCOVERY OF A CASE OF BOVINE SPONGIFORM ENCEPHALOPATHY IN A DAIRY COW IN WASHINGTON STATE AS IT RELATES TO FOOD SAFETY, LIVESTOCK MARKETING, AND INTERNATIONAL TRADE</title>
<body><pre>[Senate Hearing 108-451]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-451

                   TO EXAMINE THE CURRENT SITUATION 
 REGARDING THE DISCOVERY OF A CASE OF BOVINE SPONGIFORM ENCEPHALOPATHY 
   IN A DAIRY COW IN WASHINGTON STATE AS IT RELATES TO FOOD SAFETY, 
                               LIVESTOCK
                   MARKETING AND INTERNATIONAL TRADE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION


                               __________

                            JANUARY 27, 2004

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


  Available via the World Wide Web: http://www.agriculture.senate.gov


                                 ______

91-649              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                  THAD COCHRAN, Mississippi, Chairman

RICHARD G. LUGAR, Indiana            TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            PATRICK J. LEAHY, Vermont
PAT ROBERTS, Kansas                  KENT CONRAD, North Dakota
PETER G. FITZGERALD, Illinois        THOMAS A. DASCHLE, South Dakota
SAXBY CHAMBLISS, Georgia             MAX BAUCUS, Montana
NORM COLEMAN, Minnesota              BLANCHE L. LINCOLN, Arkansas
MICHEAL D. CRAPO, Idaho              ZELL MILLER, Georgia
JAMES M. TALENT, Missouri            DEBBIE A. STABENOW, Michigan
ELIZABETH DOLE, North Carolina       E. BENJAMIN NELSON, Nebraska
CHARLES E. GRASSLEY, Iowa            MARK DAYTON, Minnesota

                 Hunt Shipman, Majority Staff Director

                David L. Johnson, Majority Chief Counsel

               Lance Kotschwar, Majority General Counsel

                      Robert E. Sturm, Chief Clerk

                Mark Halverson, Minority Staff Director

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

To Examine the Current Situation Regarding the Discovery of a 
  Case of Bovine Spongiform Encephalopathy in a Dairy Cow in 
  Washington state as it Relates to Food Safety, Marketing and 
  International Trade............................................    01

                              ----------                              

                       Tuesday, January 27, 2004
                    STATEMENTS PRESENTED BY SENATORS

Cochran, Hon. Thad, a U.S. Senator from Mississippi, Chairman, 
  Committee on Agriculture, Nutrition, and Forestry..............    01
Harkin, Hon. Tom, a U.S. Senator from Iowa, Ranking Member, 
  Committee on Agriculture, Nutrition, and Forestry..............    07
Baucus, Hon. Max, a U.S. Senator from Montana....................    02
Coleman, Hon. Norm, a U.S. Senator from Minnesota................    08
Conrad, Hon. Kent, a U.S. Senator from North Dakota..............    06
Crapo, Hon. Mike, a U.S. Senator from Idaho......................    03
Daschle, Hon. Tom, a U.S. Senator from South Dakota..............    15
Grassley, Hon. Chuck, a U.S. Senator from Iowa...................    05
Leahy, Hon. Patrick, a U.S. Senator from Vermont.................    17
Nelson, Hon. E. Benjamin, a U.S. Senator from Nebraska...........    14
Roberts, Hon. Pat, a U.S. Senator from Kansas....................    07
Talent, Hon. James, a U.S. Senator from Missouri.................    15
                              ----------                              

                               WITNESSES
                                Panel I

Allard, Hon. Wayne, a U.S. Senator from Colorado.................    09
Durbin, Hon. Richard, a U.S. Senator from Illinois...............    12

                                Panel II

Veneman, Hon. Ann, Secretary, U.S. Department of Agriculture.....    18
Crawford, Lester M., D.V.M., Ph.D., Deputy Commissioner, Food and 
  Drug Administration, Department of Health and Human Services, 
  Washington, DC.................................................    22

                               Panel III

Torres, Alfonso, D.V.M., M.S., Ph.D., Associate Dean for 
  Veterinary Public Policy, and Executive Director, New York 
  State Animal Health Diagnostic Laboratory, College of 
  Veterinary Medicine, Cornell University, Ithaca, New York......    48
                              ----------                              

                                APPENDIX

Prepared Statements:
    Cochran, Hon. Thad...........................................    58
    Harkin, Hon. Tom.............................................    61
    Allard, Hon. Wayne...........................................    88
    Baucus, Hon. Max.............................................    63
    Crapo, Hon. Mike.............................................    74
    Crawford, Lester M...........................................   118
    Durbin, Hon. Richard J.......................................    80
    Grassley, Hon. Chuck.........................................    71
Leahy, Hon. Patrick..............................................    78
    Nelson, Hon. Ben.............................................    76
    Roberts, Hon. Pat............................................    65
    Torres, Alfonso..............................................   148
    Veneman, Hon. Ann............................................    91
Document(s) Submitted for the Record:
    Allard, Hon. Wayne, Biometrics-The Technological Advancement 
      in 
      Animal Identification......................................   154
    Fitzgerald, Hon. Peter G.....................................   156
    Stabenow, Hon. Debbie........................................   157
    Supplemental Answer from Dr. Alfonso Torres..................   158
Questions and Answers for the Record:
    Harkin, Hon. Tom..........................................166 & 180
    Baucus, Hon. Max.............................................   161
    Crapo, Hon. Mike.............................................   160
    Grassley, Hon. Chuck......................................165 & 182
    McConnell, Hon. Mitch........................................   176
                              ----------                              


 
                     HEARING TO EXAMINE THE CURRENT
   SITUATION REGARDING THE DISCOVERY OF A CASE OF BOVINE SPONGIFORM 
ENCEPHALOPATHY IN A DAIRY COW IN WASHINGTON STATE AS IT RELATES TO FOOD 
          SAFETY, LIVESTOCK MARKETING, AND INTERNATIONAL TRADE

                              ----------                              


                       TUESDAY, JANUARY 27, 2004

 U.S. Senate, Committee on Agriculture, Nutrition, 
                                      and Forestry,
                                             Washington, DC
    The committee met, pursuant to notice, at 9:36 a.m., in 
room SR-328A, Russell Senate Office Building, Hon. Thad 
Cochran, [Chairman of the Committee], presiding.
    Present or submitting a statement: Senators Cochran, 
Roberts, Coleman, Crapo, Talent, Grassley, Harkin, Leahy, 
Conrad, Daschle, Baucus, and Nelson.

      STATEMENT OF HON. THAD COCHRAN, A U.S. SENATOR FROM 
MISSISSIPPI, CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    The Chairman. Good morning. The committee will please come 
to order.
    Today, our committee meets to conduct a hearing to review 
the status of the administration's response to the discovery of 
a case of bovine spongiform encephalopathy, or BSE, and to 
assess the effect BSE has had on the U.S. livestock industry 
and the safety of our nation's food supply.
    I am pleased to welcome today the distinguished Secretary 
of Agriculture, the Honorable Ann Veneman, and Dr. Lester 
Crawford, Deputy Commissioner of the U.S. Food and Drug 
Administration, who are here today to discuss these issues and 
answer questions from the members of the Senate Committee on 
Agriculture, Nutrition, and Forestry.
    I first wish to compliment the Secretary for the prompt, 
public response she organized and led at the Department of 
Agriculture to investigate and make available to all Americans 
the facts about the BSE discovery. It has been an impressive 
example of responsible leadership, in my opinion.
    Even though the investigation continues and there are 
questions that are not yet fully answered, the marketplace has 
stabilized and there has been no public panic. Most Americans 
realize that we have in place inspection and safety procedures 
that are effective in protecting our food supply, and in spite 
of the fact that we have experienced a serious disruption in 
the U.S. beef trade, market prices are higher than last year's 
levels.
    We are hopeful that our trading partners around the world 
will apply the principles of sound science when assessing the 
risks to their markets of this isolated event in the State of 
Washington. I am convinced that it is because of the 
transparency, with which Secretary Veneman and others have led 
the effort to inform and educate the public, that there has 
been such high consumer confidence in American beef products.
    Our committee is ready to cooperate in any way necessary to 
help strengthen our laws to ensure the integrity and safety of 
our nation's food supply and the restoration of markets for our 
food products.
    I am pleased at this time to yield to other members of the 
committee for any statement that they may wish to make.
    [The prepared statement for Chairman Cochran can be found 
in the appendix on page 58.]
    Senator Baucus.

   STATEMENT OF HON. MAX BAUCUS, A U.S. SENATOR FROM MONTANA

    Senator Baucus. Thank you very much, Mr. Chairman. I thank 
my colleagues, Senator Allard and Senator Durbin, for taking 
such an active interest, and I compliment, too, as has the 
Chairman, Secretary Veneman. She has done a great job. It is a 
difficult time, to say the least, and I know how pressured she 
has been, but I thank you, Madam Secretary, and your people. I 
have a few suggestions that we can talk about when you testify, 
but you have done, quite a good job.
    Mr. Chairman, I have a fairly lengthy statement and I don't 
want to take too much of the committee's time, but there are 
several issues that concern me. I will just talk about them 
very briefly.
    One is the need for a trade envoy. I know that the USDA has 
spent a good bit of time talking to various countries, 
encouraging them to open up their markets to U.S. beef, but the 
Deputy Secretary or Under Secretary of Agriculture has a lot of 
other issues on their plates, to say the least. It is very 
important, because this is such a vital industry to America, 
that the United States appoint, that the President appoint a 
very top-level person with high prestige whose sole mission is 
to help work with countries and get them to reopen their 
markets to American beef. We need one person to work on this 
full time.
    Second, we ought to spend a little time on the mouthing 
rule. I certainly understand the general point, namely if the 
number of teeth, the third tooth hasn't come in in 30 months, 
the animal is too old and more likely to be diseased and placed 
in the category. That is a very imperfect rule because 
different animals develop at different rates. We should take a 
hard look at that one again to make sure that we know what we 
are doing and we don't throw, not the baby out with the 
bathwater, we just don't over react with that rule.
    Another is country of origin labeling. We have to get this 
through the Congress. I am very upset, frankly, that on this 
appropriations bill, the conferees put in language which 
delays--I think they did, I can't recall if that was put in the 
bill or not--and the administration has been working in 
conjunction with that. That is delaying the implementation of 
country of origin labeling. That is just wrong. That doesn't 
work. This is a consumer confidence matter. If consumers know 
that it is American beef, we have done a very good job, and as 
I said, you have done a good job, too, Madam Secretary, in 
protecting American beef and particularly the safety of 
American beef and we have to work very hard on that.
    Animal ID is something we have to work on. I understand 
USDA has been working on a national system and I appreciate 
that. I want to talk to you, Madam Secretary, when you testify 
about what kind of timeline you are looking at and how that is 
working out.
    We in Montana are very proud that we brand all of our 
cattle. Cattle, it is my understanding, east of the Mississippi 
don't. The States do not brand their cattle east of the 
Mississippi. We have a good system and we are very proud of it. 
Montana producers want to go the extra mile in making sure that 
our cattle are safe. That is, they like the ban on downers. 
They want, are very, very interested, intrigued with a national 
ID system. They want to find a mouthing rule that works.
    It is astounding to me--I am so gratified the degree to 
which Montana stockgrowers have come together to make sure that 
all is being done to ensure that their beef is safe. I know 
this because we have had many meetings in Montana the last 
couple of weeks, in ten different communities in Montana, and 
this is what producers say, this is what the packers say, and 
this is what the consumers say. There is unanimity in being 
very firm but fair here and I know you have been working hard.
    One final point is potential insider trading. The disease 
was known, it is my understanding--I might have my dates wrong, 
I am pulling it out of the air--about December 9 or something 
like that, and it was not revealed to the public for some time 
later. At that time, the cattle futures market fell about 15 
percent. Now, there could be possible reasons why the futures 
market fell, but I want at some point for us to perhaps have 
the CFTC look at potential insider trading due to the delay 
between discovery of BSE and the date of announcement, which 
was, in my understanding, about ten or 12 days later. I may 
have the facts wrong, but at the very least, let us get that 
out and see what we can do.
    Anyway, Mr. Chairman, thank you very much. This is 
extremely important to my people and my State and I thank all 
those that worked very hard to try to find a solution.
    [The prepared statement of Senator Baucus can be found in 
the appendix on page 63.]
    The Chairman. Senator Crapo.

    STATEMENT OF HON. MIKE CRAPO, A U.S. SENATOR FROM IDAHO

    Senator Crapo. Thank you very much, Chairman Cochran. I 
appreciate the committee holding this hearing. This is a 
critical hearing to address the discovery of the case of BSE in 
a cow imported from Canada through the State of Washington and 
the related food safety, livestock marketing, and international 
trade issues that have arisen in light of this discovery.
    I would like to thank Senator Allard and Senator Durbin for 
being here today to discuss some of the issues that they are 
advocating with regard to this issue, and Secretary Veneman, 
Commissioner Crawford, and Dr. Torres for being here with us 
today, as well.
    Beef cattle is my home State of Idaho's No. 1 commodity. 
Valued at more than $975 million annually, it is a vital part 
of Idaho's economy. Like all of you, I am deeply concerned with 
the discovery of BSE in the United States, not only for the 
safety of our food supply, but also for the effect that this 
discovery is having on the livelihood of my fellow Idahoans and 
our agricultural economy as a whole.
    I am confident that our beef supply is safe. The 
precautions and safeguards we had in place worked and worked 
well. U.S. consumers are blessed with an extremely high quality 
and competitive domestic beef industry. Our cattle ranchers and 
processors meet rigorous safety and quality standards and we 
have every reason to have confidence in the continued safety of 
our beef supply.
    Secretary Veneman, I would like to commend you and the many 
USDA employees for your quick and diligent response to the 
discovery. I also appreciate the Department's effort to work 
with the cattle industry, State and local governments, and 
others throughout this process.
    So far, three of the cows from the indexed herd have been 
found in Idaho. Close contact with the local cattle industry 
has been essential and I would encourage the continued and 
increased communication with affected communities. In my view, 
more cooperation and more coordination between all interested 
parties is always better, and this open dialog has clearly 
contributed to maintaining our consumer confidence.
    That having been said, as has already been raised by 
others, there are a number of critical issues dealing with how 
we should best manage this issue in this country that will be 
handled both here in Congress, in the Department of 
Agriculture, and in our respective State Departments of 
Agriculture as they struggle with this difficult issue.
    I would like to express my support for the continued 
efforts to reopen our beef export markets. We all understand 
the importance of regaining these markets to the beef industry. 
Senator Baucus has already mentioned the fact that we have 
encouraged the establishment of a trade envoy, very specific 
focus in our Federal Government's efforts to make sure that 
these markets are reopened. Prolonged closure of our markets 
could have serious long-term effects that will ripple 
throughout our entire economy.
    I commend the administration's efforts and encourage 
continued persistence to reopen the doors of our trading 
partners. We must maintain constant dialog with nations that 
have banned U.S. beef and continue to work to restore their 
faith in our beef exports so that they will terminate their 
bans.
    Collectively, we must ensure that the proper mechanisms are 
in place to prevent and to respond to future cases, and as good 
as our efforts were in response to this case, I am certain that 
we can improve our abilities.
    Understandably, when incidents such as this occur, it is 
natural to immediately enact changes or new programs to address 
the issue. However, we must use a great level of caution in our 
pursuit of reforms and the further development and expansion of 
tools, such as animal identification programs. We owe it to the 
agricultural industry and consumers to ensure that we carefully 
consider all available options. Any of these reforms which we 
adopt must be guided by sound science. They must be flexible to 
take into account the needs of local communities and our 
private industry and not be overly cumbersome and intrusive to 
U.S. cattle operations or to American consumers.
    Clearly, questions regarding the current and future 
responses to the discovery of BSE remain to be addressed. 
Overall, however, I have been impressed with our timely 
response and the continued work to address this discovery. I 
appreciate the administration's efforts to keep consumers and 
the ranching community well informed at every step in the 
process.
    Again, I thank Secretary Veneman and the Department for 
their prompt response and our chairman for holding this hearing 
and look forward to working with you all to be sure that we are 
well equipped to prevent and respond to incidents of BSE. Thank 
you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    [The prepared statement of Senator Crapo can be found in 
the appendix on page 74.]
    Senator Grassley.

  STATEMENT OF HON. CHARLES GRASSLEY, A U.S. SENATOR FROM IOWA

    Senator Grassley. Thank you, Mr. Chairman, for this timely 
opportunity to discuss a crucial issue. The discovery of a 
Canadian cow carrying BSE in the United States shaved off 20 
percent of the market price for live cattle and devastated our 
export markets within days of the announcement. While the 
discovery of the Canadian cow has had and will continue to have 
a devastating impact on cattle producers, I need to commend the 
Department of Agriculture for initially handling the issue well 
and solidifying domestic consumer confidence.
    I plan to raise many questions today which seemingly might 
challenge the Department's recent choices, but I recognize that 
the U.S. Department of Agriculture has done an outstanding job 
and no one should question my confidence in our meat supply or 
my belief that we will overcome some of the issues I will raise 
today to further solidify consumer confidence and reopen 
foreign markets as quickly as possible. Thank you.
    The Chairman. Thank you, Senator.
    [The prepared statement of Senator Grassley can be found in 
the appendix on page 71.]
    Senator Conrad, an opening statement? You may proceed.

STATEMENT OF HON. KENT CONRAD, A U.S. SENATOR FROM NORTH DAKOTA

    Senator Conrad. I thank the Chairman. I thank the Chairman 
very much for holding this hearing. I held a hearing in North 
Dakota on this subject and it was very interesting, the level 
of concern across the State with respect to the potential 
effect on our economy.
    I just read the Washington Post this morning. I want to 
commend USDA for additional steps that have been taken. They 
are very important steps. I must say I was somewhat alarmed at 
our hearing to learn that we have actually been feeding poultry 
litter to cattle in the country. I don't know how widespread 
that was, but it certainly didn't make any sense to me. I am 
very pleased that USDA has stopped that practice. It is the 
right step to have taken.
    In this morning's Wall Street Journal, there is a story 
headlined, ``U.S. Investigates Cattle Trades,'' and in it, it 
says that Federal regulators are investigating whether some 
commodity traders last month had advance knowledge that the 
first U.S. case of ``mad cow'' disease was confirmed in 
Washington State. It goes on to say that investigators with the 
Commodity Futures Trading Commission are interviewing possible 
witnesses, reviewing documents and phone records, and examining 
trading patterns on the Chicago Mercantile Exchange. At issue 
are investors who took short positions in live cattle futures, 
betting on a price decline in the days just before the December 
23 announcement by the Department of Agriculture Secretary.
    That is a serious matter and it is something that I heard a 
lot about at the hearing in North Dakota, a very grave concern 
that there was a gap between the time we knew that that cow was 
diseased and the time it was reported, a gap between the time 
we knew that cow was from Canada and the time that that was 
reported, and a very serious concern that some had inside 
knowledge. People who raised the concern are very knowledgeable 
in the futures market and had been watching developments and 
were convinced that some had insider knowledge.
    Given the very steep price decline, that is a matter that 
this committee simply must investigate. I have asked the 
Inspector General to investigate the question of a gap between 
what was released to the public and what we knew about the 
cow's origin, if there was such a gap, and how it occurred, and 
what the effects of it were.
    Mr. Chairman, just very briefly, at the hearing in North 
Dakota, there were three things that came up and came up 
repeatedly. One was this question of a gap between the time we 
knew it was a cow from Canada and when that was released to the 
public.
    The second was a livestock ID system. Last week, the 
committee was briefed by an organization that currently has in 
operation an apparently successful livestock identification 
system, one that is based on ear tags with computer chips. 
According to this organization, they could scale up a national 
program within 90 days provided it was funded, and they have 
estimated it would cost about $100 million a year.
    The third issue was country of origin labeling. With USDA's 
December 30 announcement, it is now a given that we are going 
to have a national livestock identification system. Common 
sense would tell us that having an ID system in place will make 
it much easier and much less costly to implement country of 
origin labeling, since under the ID system we will be tracking 
cattle from the farm to the processor.
    A fundamental question has to be asked and answered today 
on the implementation of country of origin labeling. That is of 
deep interest to the producers of my State, and with a national 
identification system, which clearly is going to be required, 
it would appear that putting off country of origin labeling for 
2 years really is not necessary and that we could speed the 
implementation of country of origin labeling. Thank you, Mr. 
Chairman.
    The Chairman. Thank you, Senator.
    Senator Roberts.

   STATEMENT OF HON. PAT ROBERTS, A U.S. SENATOR FROM KANSAS

    Senator Roberts. Yes, thank you, Mr. Chairman. I see my 
colleagues, Senator Allard and Senator Durbin, eagerly awaiting 
to shine the light of truth into darkness, so I am going to ask 
that my prepared statement be part of the record, with the 
exception--and I have about 11 questions for the Secretary, so 
to move things along, I am not going to read my entire 
statement.
    In the days after this announcement, the No. 1 priority was 
to maintain consumer confidence in our beef supply. Secretary 
Veneman and her team, along with the National Cattlemen's Beef 
Association and its State affiliates, really jumped on this 
issue and made sure the real facts and information regarding 
the case and the disease were provided to the American public 
and the press. It is in no small part due to these efforts that 
we have avoided a replay of the alar disaster some years ago 
where it cost the apple industry $600 million and they deserve 
a lot of credit. Television and newspaper reporting has been 
relatively balanced and most consumers have responded by 
continuing to consume beef.
    I want to thank the Secretary, her team, and especially the 
Cattlemen's Beef Association and all their State affiliates. I 
will wait until the Secretary comes to respond to questions, 
and I thank the Chairman for holding the hearing.
    The Chairman. Thank you, Senator Roberts.
    [The prepared statement of Senator Roberts can be found in 
the appendix on page 65.]
    The Chairman. Senator Harkin.

STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM IOWA, RANKING 
   MEMBER, COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY

    Senator Harkin. Thank you, Mr. Chairman. Again, I just ask 
that my statement be made a part of the record.
    Just two things. USDA and FDA are to be commended for the 
openness and the speed with which they have responded. While 
both USDA and FDA's actions are a strong start, I hope that 
this hearing will shed light on some questions that remain 
unanswered.
    One of those is the renewed interest in a national animal 
ID system. Five weeks after intensive investigation, we still 
have only found 28 of the 81 cows that entered the U.S. from 
Canada with the infected cow, we are really going to have to 
look at this ID program.
    Second, we need more scientific information on BSE, how 
ruminant feed is fed to non-ruminants, how that feed may 
recycle back into ruminant feed later on. I know that former 
Under Secretary Torres, I believe, is going to be testifying to 
that, and maybe Senator Allard, who is also a veterinarian, 
could also testify to that.
    Thank you very much, Mr. Chairman, for holding the hearing.
    The Chairman. Thank you, Senator Harkin.
    [The prepared statement of Senator Harkin can be found in 
the appendix on page 61.]
    The Chairman. Senator Coleman, you are recognized for any 
opening statement you may have.

 STATEMENT OF HON. NORM COLEMAN, A U.S. SENATOR FROM MINNESOTA

    Senator Coleman. Thank you very much, Mr. Chairman. Just 
briefly, I want to thank you for holding this very important 
hearing. I also want to thank the Secretary for being here 
today.
    I want to echo the Minneapolis Star Tribune editorial of 
December 31, 2003, which observed, and I quote, ``Agricultural 
Secretary Veneman and the Bush administration deserve praise 
for moving quickly and decisively to respond to the public 
health threat and to the question of worldwide consumer 
confidence in the safety of U.S. beef.'' The Star Tribune 
rightly noted that the public can take those assurances to 
heart, and I believe what was true before December 23, 2003, 
remains true today. America produces the safest, most abundant, 
most affordable food supply in the world, and the evidence I 
have seen of the continued strong consumer confidence in the 
United States is a testimony to that fact.
    My frustration is that there are about 50 countries out 
there who have chosen to wall off their borders to U.S. beef. I 
would very much like to see us continue to move very 
aggressively to deal with that, using sound science and fact. 
That is all we are asking for, Mr. Chairman.
    I have joined in a letter with Senators Baucus, Craig, 
Nelson, and others. We have talked about perhaps sending a 
high-level envoy there. I am not offering any suggestions, but 
I would say, and I haven't talked to him, somebody like Walter 
Mondale, former U.S. Ambassador to Japan, somebody of that 
caliber who has relations working with the Secretary. It has to 
be the right thing in dealing with the international community 
and I will certainly defer to the Secretary's judgment. We need 
that kind of approach, to go to folks and say, all we are 
asking is sound science and fact. That is what this is about.
    Two other quick observations. One, a matter that was raised 
in the Star Tribune is the need for a national animal 
identification program, and that is important. I know my 
colleagues have touched upon that. Madam Secretary, I do 
applaud her decision on December 30, that you have begun work 
on the national ID program. That is helpful.
    Then the last comment is the FDA decision of yesterday does 
raise some questions that I hope we address today. Does this 
announcement make our beef supply safer and by how much? Does 
it do anything to reopen our markets? Again, that issue is 
important for me and my cattlemen. How does it impact our 
ability to feed animals? I look forward to hearing the answers 
to these and other questions.
    Again, Mr. Chairman, let me thank you for your leadership 
in bringing this important hearing before us today. Thank you 
very, very much.
    The Chairman. Thank you, Senator Coleman, for your 
comments.
    Let me welcome our distinguished colleagues, Senator Durbin 
from Illinois, Senator Allard from Colorado. I am going to ask 
Senator Allard to proceed with his statement and then we will 
call on Senator Durbin. I hope you can limit your statements to 
5 or 10 minutes at the most, if that is all right. I don't want 
to cut you off, but we do have the Secretary and the Food and 
Drug Administration Deputy Commissioner awaiting the 
opportunity to testify.
    Senator Allard.

  STATEMENT OF HON. WAYNE ALLARD, A U.S. SENATOR FROM COLORADO

    Senator Allard. Thank you, Mr. Chairman. If you will let me 
know when we get to 5 minutes, I will wrap it up. I would ask 
that you put my full statement in the record, if you would.
    The Chairman. Without objection, it is so ordered.
    Senator Allard. Mr. Chairman, first, let me thank you for 
convening this timely and very important hearing. I appreciate 
the committee making the accommodation to allow me to appear 
this morning. I would also like to extend a welcome to 
Secretary Veneman and Dr. Crawford and also my colleague, 
Senator Durbin.
    The level of participation in bovine spongiform 
encephalopathy roundtables and panels across the country, as 
well as the interest in this hearing, is one more sign that 
government, industry, and the retail sector are taking this 
matter very seriously and will take all necessary and 
reasonable measures to isolate this occurrence and prevent 
future incidents.
    Let me start by stating that I believe U.S. beef is safe. 
When a single BSE-positive cow was found in Washington State, 
our food safety policy and safeguards worked. USDA acted 
quickly and effectively. Where there were room for 
improvements, I believe USDA seized the opportunity to make 
them.
    Everyone may agree that we have learned a tremendous amount 
from this finding. Future policy recommendations will obviously 
need to take into account those changes that are believed 
necessary as a result of the recent finding, especially as we 
learn what worked and what did not and what we need to know in 
the future. We must continue to implement the requisite 
measures to protect our food supply, but there is no reason to 
question the integrity of American meat safety and the overall 
safety of the system.
    I believe that the government is taking a hard-line stance 
against further occurences of BSE in the United States, as 
evidenced by the major announcement by the Secretary several 
weeks ago. While we had hoped this day would never come, it was 
an eventuality that we had to be prepared for.
    As Members of Congress, it is our duty to help enact 
legislation that protects the consumer and safeguards our 
national food supply. However, consumer protection and national 
security must not stifle the ability of the agriculture 
industry to produce food efficiently and affordably. If they 
do, we will have undermined the various very goals that we were 
attempting to accomplish. Overburdensome rules and regulations 
will hinder the ability of agriculture to provide our nation 
with food, threatening our nation's independence and security 
by making us dependent on foreign nations, nations that may not 
place as much emphasis on safety as we in the United States do.
    In simple terms, our food supply policy must avoid the 
pitfalls of our energy policy. We rely some 60 percent on 
foreign energy sources. We don't want to put ourselves in that 
position as far as beef and food supply.
    We have had our warning and we must take it very, very 
seriously. If we do not, we will pay for it with the economic 
life of the producer and retailer. If rules are not followed, 
if regulations are not adhered to, no one has more to lose than 
those who failed to follow them. A 75 percent compliance rate 
when it comes to feed regulations will not afford the level of 
protection we need to maintain the integrity of animal health, 
and blatant violations are intolerable.
    In the past several weeks, the USDA has taken several steps 
that were not necessarily embraced by all with open arms, but 
most agreed they were the proper response to the task at hand. 
We all realize that the finding of BSE is a serious challenge 
to consumer confidence and the industry's financial stability. 
Government must take strong measures to bolster confidence and 
ensure consumers that American beef is a safe and wholesome 
product. I believe Secretary Veneman took the first step with 
her policy announcement several weeks ago.
    I believe that these actions by the Secretary will enhance 
the safety of the American food supply. The three major policy 
directives dealing with downer animals, verification, and 
specified risk material are a step in the right direction, but 
as is always the case, the devil is in the details.
    As a veterinarian, I am committed to the idea that any 
measures imposed must be science-based. While these recent 
actions do have sound footing and are logical decisions given 
the characteristics of BSE, there is still much work to be done 
to protect both consumer safety and the industry.
    Much work must be done on defining and identifying downer 
animals. This issue has been highly controversial and much 
discussion has taken place on the matter on Capitol Hill. Are 
animals with nerve damage from calving to be forbidden, or only 
aged and sick animals? Who will be the one to determine which 
case is which? These questions must be worked out at great 
length by those most knowledgeable about the industry and food 
supply. I am also hopeful that the USDA will provide my 
constituents with further guidance when it comes to matters 
like dentition and animal age verification.
    In terms of verification and traceability, a true 
verification and identification program, perhaps using retinal 
scanning and other biometric technologies would provide 
immediate background resources on the origin and presence of 
every animal leaving marketing to the retailer and the 
producer. In fact, Swift and Company is using just such 
technology in Colorado, Idaho, and Nebraska as part of the beef 
industry's first traceability program.
    This is about tracking the cow and food health, not 
politics. It would provide answers in times of emergency and 
provide closure during the critical first hours of an 
epidemiological investigation. A credible identification plan 
must take into account identity and location, a fact that I 
encourage the USDA to consider when developing the forthcoming 
identification plans.
    I would add at this time, Mr. Chairman, and I know one of 
the members on your committee had talked about the tag 
identification, I hope that the USDA in putting forth rules and 
regulations will allow enough flexibility that they don't let 
just one technology prevail, that it be open for new 
technologies that will be coming to us in the future so that as 
they are developed, they can be put to use if they are a better 
system.
    At this time, I would ask the Chairman that the full text 
of a statement I entered into the Congressional Record last 
week on this issue be inserted into the committee's record, as 
well.
    The Chairman. Without objection, it is so ordered.
    Senator Allard. While such a verification program will 
indeed cost producers money, I believe that retail chains would 
eventually demand such assurances anyway. In the long run, such 
verification will enhance the value of the product and prove a 
valuable tool in domestic and international sales.
    As implementation of the USDA directives moves forward, I 
encourage the USDA to continue working cooperatively with the 
beef industry. Together, we will not only improve food safety, 
but we can also restore access to important markets, an 
important component of our economy.
    Food safety goes hand-in-hand with the restoration of our 
markets. We have all seen the list of nations that have banned 
U.S. beef. We must work diligently to reopen these markets and 
to re-establish the trust and confidence that I know the U.S. 
beef industry deserves. In my own State, employee hours at beef 
processing plants are being cut back, hurting the whole 
Colorado economy.
    As we continue to trace back, trace forward, verify, 
confirm, and cull, we cannot allow nations to block our 
products under the guise of BSE in order to bolster their own 
industry or to cultivate relationships with other exporters. A 
sound process must be in place immediately that provides 
assurances to other nations about the quality and safety of the 
meat they receive. This must be a high priority of the Congress 
and administration and I intend to make sure that such 
discussions take place.
    Thank you, and remember this. Beef is still what is for 
dinner. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Allard.
    [The prepared statement of Senator Allard can be found in 
the appendix on page 88.]
    The Chairman. Senator Durbin, you may proceed.

 STATEMENT OF HON. RICHARD DURBIN, A U.S. SENATOR FROM ILLINOIS

    Senator Durbin. Thank you very much, Mr. Chairman and 
members of the committee, for your leadership in holding this 
hearing and my special thanks to Secretary Veneman. I want to 
join on a bipartisan basis in thanking her for her leadership. 
I am sure this was a very difficult holiday season for her, but 
she rose to the challenge and she rallied America to do the 
right thing, to move in the right direction, and that is a 
very, very important thing and I salute her for that.
    I also want to address, though, some of the elements and 
questions which still remain. I wrote a letter to the Secretary 
a few weeks ago asking about the delay in diagnosing BSE in the 
cow last month in Washington State. Given the focus of this 
hearing, I would like to discuss some of the questions I asked.
    If the inspectors recognized that the animal was 
uncoordinated or unable to rise on her own, why was she allowed 
into the human food chain at all? I am told by veterinarians 
that the behavior of an animal with calving paralysis and the 
behavior of an animal with a neurological disorder, such as 
BSE, is virtually indistinguishable. Why was this carcass not 
held until BSE test results were known? It was only after the 
incident that the USDA adopted a test and hold policy on all 
BSE-tested animals.
    I also wonder why it took 13 days to obtain the presumptive 
positive result test for BSE. I understand immunohistochemistry 
analysis usually takes 5 to 7 days. As a result of the delay, 
the animal was processed, according to Dr. Steven Solomon from 
FDA, into 2.8 million pounds of consumer product, all of which 
were potentially contaminated.
    To prevent future unnecessary delays in obtaining BSE test 
results, the USDA should adopt the use of rapid BSE tests on 
all cattle and bison presented for processing that are either 
suspect or over 30 months of age. If a rapid test had been used 
on the cow in Washington State, the results would have been 
known within a few hours instead of days, avoiding the need for 
a costly recall.
    How many cattle in America have BSE? Answering that 
question today is similar to trying to estimate the prevalence 
of HIV by only testing individuals who have symptoms of AIDS. 
At the current level of testing, we have no real estimate of 
the true prevalence of BSE in America. Using rapid BSE testing 
on suspect and older cattle would provide critical surveillance 
data that could make clear whether we truly have a BSE problem 
in our country and demonstrate to our customers and partners 
around the world that they have nothing to fear.
    Expanding BSE surveillance will cost money. However, a 
Consumer Union's poll released today shows that 71 percent of 
Americans who eat beef said they are willing to pay more to 
support testing cattle for BSE. Of these, 95 percent say they 
would pay an additional ten cents a pound for beef that is 
tested.
    I introduced legislation last week that will reduce the 
likelihood that meat from BSE will reach the food supply. This 
bill, S. 2007, codifies some of the USDA's recent steps, which 
I applaud. It restricts the importation of more ruminant-
derived materials, plugs loopholes in the current ruminant feed 
restrictions, requires testing of older cattle, and expands 
surveillance and research for chronic wasting disease in deer 
and elk and Creutzfeldt-Jacob disease in people.
    I reflected for a moment before this hearing, Mr. Chairman, 
about September 11. On September 11, 3,000 innocent Americans 
lost their lives. Nineteen terrorists were identified. It was 
one of the most tragic moments in American history.
    I wondered if we would have been able to summon the will to 
respond had that tragedy been averted and one of those 
terrorists been discovered ahead of time and his plot 
uncovered. I wonder if we would have been able to summon the 
will with that warning signal to create a new coordinated 
Federal agency, to revise laws giving our law enforcement more 
authority, to confront a major industry like the airline 
industry about the need for more safety, and I thought about 
our hearing today.
    We are dealing with a situation where we have a clear 
warning. What happened in Moses Lake, Washington, is an 
indication of what could happen on a much grander scale. I 
certainly agree with my colleague, Senator Allard, and all of 
you. We have the safest food supply in the world. We now have 
fair warning. What happened with this cow in Washington is fair 
warning that we need to summon the same political will as we 
did after September 11, to come together on a timely, 
bipartisan basis to look at some very troubling issues, issues 
which involve the role of government and the private sector, 
issues which really demand of us more efficient government 
response to make certain that we continue to have the safest 
food supply in the world.
    I have said for many years, and I continue to say, we need 
a single food agency. We currently have over a dozen different 
agencies in our government responsible for food safety, more 
than 35 laws, dozens of committees with jurisdiction. Look at 
this issue. The feed being given to the cattle is regulated by 
the Food and Drug Administration. The animal is regulated by 
the U.S. Department of Agriculture. When we are talking about 
chronic wasting disease in elk and other animals, that is 
regulated by the Department of the Interior. Why? Why is this 
spread all over government? Why doesn't it come together, as we 
did with the Department of Homeland Security, into one science-
based operation that we can turn to with confidence? That is 
our challenge.
    Instead of a dead canary in a cage, Mr. Chairman, we have a 
broken down dairy cow in Washington. The message, however, is 
clear. The safest food supply in the world is vulnerable. Will 
we have the political will to make the important decisions to 
keep it safe? The challenge is not just to reopen our markets. 
The challenge is to make certain that we do everything humanly 
possible and scientifically sound to close the door on any 
unsafe food that may find its way to the tables of American 
families and our customers around the world. I sincerely hope 
on a bipartisan and timely basis we can summon the will to 
respond. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    [The prepared statement of Senator Durbin can be found in 
the appendix on page 80.]
    The Chairman. There have been members of the committee who 
joined the hearing after opening statements have been made, but 
I am going to recognize them for any opening statement they 
wish to make. Senator Nelson.

   STATEMENT OF HON. E. BENJAMIN NELSON, A U.S. SENATOR FROM 
                            NEBRASKA

    Senator Nelson. Thank you, Mr. Chairman. First of all, I 
want to commend Secretary Veneman and her staff for responding 
rapidly to this beef crisis and for their efforts to work at 
the level necessary to deal with the issue in foreign 
countries.
    Obviously, there are two points here to be made. Food 
safety is one of them, and the actions that they have taken are 
going to only improve the food safety issue. That deals with 
credibility. There has never been that much of a credibility 
issue with the domestic market, but the foreign markets, some 
of them, have taken this in a form of protectionism.
    I learned a new word the other day, or some new words. 
Instead of over reaction, an abundance of caution. There has 
been an abundance of caution taken by many of the foreign 
countries in stopping the exports for our beef. We have to deal 
with exports and imports as quickly as we possibly can. I have 
learned a lot of new words over the year, credibility, food 
safety, protectionism, lost markets and delays, but the only 
word that we really want to focus on here today is not simply 
what we are doing but when will we get the export markets 
opened.
    I have said recently that I am interested in sending a 
person to Mars, but I am a lot more interested right now in 
sending beef to Japan and all the other Asian and other markets 
that we have had over the years. In Nebraska, we are at risk 
for 21,000 jobs that will be lost if this continues over a 
protracted period of time. The question is, when will we get 
those markets reopened and what will it take?
    I have joined several of my colleagues and said the 
administration needs a special envoy. Also the President needs 
to make some calls to many of the leaders of the foreign 
countries that are engaging in what may be protectionism or 
this overabundance of caution. It strikes me as odd, if my 
information is correct, that Mexico is denying exports of U.S. 
beef but permits boxed beef from Canada.
    These issues have to be resolved, and the only question my 
cattle growers in Nebraska and the people who work in the 
industry that supports cattle growers in the beef industry are 
asking is when will this open. Nebraska beef exports during the 
years when I was Governor went up from $400 million to over 
$800 million in 7 years. I notice that they have gone up since 
then. Due to this crisis, they are dropping, and that is a 
concern that we must address here today.
    I appreciate, Mr. Chairman, your calling this together, 
calling us together in this hearing. There is an assumption 
that only the Midwest deals with beef. Quite frankly, every 
State has a beef industry to one degree or another. It just 
happens that Nebraska relies significantly on this, and one out 
of five steaks in the United States is Nebraska beef. I could 
say in a partisan way, I am sorry for those other poor four 
folks, but there are cattle that are grown outside of Nebraska 
that are pretty good, too.
    We have a problem, I appreciate it, and I hope that we can 
get the answer to when will this protectionism, when will this 
embargo against United States beef be ended. That is the only 
question that I am interested in today because that is, in 
fact, the bottom line. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    [The prepared statement of Senator Nelson can be found in 
the appendix on page 76.]
    Senator Talent, do you have an opening statement?

  STATEMENT OF HON. JAMES TALENT, A U.S. SENATOR FROM MISSOURI

    Senator Talent. Just very briefly. I have one I would like 
to submit for the record, Mr. Chairman.
    I also want to compliment the Secretary and the Department 
for a very quick response. The fact that consumer confidence in 
the food system has stayed high is a testimony to that. In a 
sense, we are dealing with a system that has worked in the 
sense that it has protected the safety of our food supply, and 
that is why all of us can sit here and say we have the safest 
food supply in the world. We do.
    The question is, how can we improve the system so as to 
ensure that there is no leakage of confidence, if you will, 
that the response is so swift that confidence remains high, 
even when a lack of confidence might not be based on science. 
Also, as Senator Nelson said, no one around the world has an 
excuse for closing their markets to our product.
    That is what I am interested in finding out. There are 
several aspects of the issues I want to go into with the 
Secretary, Mr. Chairman. I have, as I said, a statement I would 
like to submit for the record and I thank you for giving me an 
opportunity.
    The Chairman. Without objection, the statement will be 
printed in full in the record.
    The Chairman. Senator Daschle.

STATEMENT OF HON. TOM DASCHLE, A U.S. SENATOR FROM SOUTH DAKOTA

    Senator Daschle. Thank you, Mr. Chairman. I, too, join with 
others in thanking you for this timely and important hearing. 
The article in the Wall Street Journal today again illustrates 
the degree to which there are still unanswered questions about 
what happened and why, and the more this committee can 
aggressively pursue all of those issues and questions, the 
better off our country will be.
    I join with others, as I have personally, in commending the 
Secretary for many of the actions she has taken, one in 
particular. She took a little heat last week on the downer 
cattle decision. It was the right decision, and I told her 
personally and want to say publicly that I appreciate the 
decision she made with regard to downer cattle.
    I am concerned that we are virtually the only country in 
the world that now have that policy. There are countries all 
over the world that have the policy we once had, that we had 
until just recently with regard to downer cattle. A lot of that 
cattle comes into this country and we have no guarantee that 
those downer cattle ultimately don't enter into the feed and 
food system at some point.
    That, again, is why many of us have said it is so critical 
for us to have country of origin labeling, so people understand 
that we have, as the Senator from Missouri just noted, a higher 
standard for safety and quality than other countries do. We 
threaten that quality and that safety to a certain extent when 
we allow downer cattle to come in without any indication that 
this is a foreign product.
    This is yet another illustration, another argument, in my 
view, why country of origin labeling is so critical. In that 
regard, I am also curious, and I am hoping the Secretary can 
address somewhat of a technical intention about her intentions 
with regard to country of origin labeling. The law requires the 
regulations to be promulgated by September. The law also now 
stipulates, as we have deemed it to be so in the passage of the 
omnibus appropriations bill, not to be implemented until 1 year 
from now, in September of 2006. There is a distinction.
    The wild and raised fish regulations will be implemented on 
time this September. The question is, will the regulations for 
all country of origin labeling be promulgated as required by 
law, and this is something I hope that the Secretary can 
clarify. If I am here, I want to be able to ask her that 
question.
    Mr. Chairman, I would also say, as others have suggested, 
there are a number of other actions that ought to be taken. We 
ought to extend indefinitely this ban on live cattle from 
Canada. We ought to rescind the order on boxed beef that was 
made last October. I believe that we ought to have far greater 
effort on the prioritization for greater testing than what we 
have seen so far. We can do better than we are doing today on 
testing. We need a regimen, we need a plan, and we need to work 
together to see that that is achieved.
    Also, Senator Nelson made a good point, one that many of us 
have made over a period of time. We need to send the highest-
level negotiator we possibly can to these countries to tell 
them to open up their borders once again. There is absolutely 
no reason why they shouldn't be taking U.S. meat products, and 
beef in particular, and we need to make that point as clearly 
and as emphatically as we can and hopefully open those borders 
as quickly as we can.
    We also need to deal with all of that product that is still 
out there, not able to penetrate those markets. We don't want 
it to come back here. We need to find a place for it to land. 
We haven't done that yet, and it is critical we find a suitable 
market for it.
    Finally, to the point that Senator Durbin made, it is 
critical we consider reorganizing ourselves in this Federal 
Government in order to accommodate the demands, the challenges, 
and the extraordinary complexity that we face as a country 
today. We can't do that with the disjointed, bifurcated, and 
extraordinarily complex array of bureaucratic boxes that we 
have created to address this issue in the future. I hope we can 
work on that, as well.
    This is a good start, a good hearing, an important time to 
have it, and I commend the Chairman for holding it. Thank you.
    The Chairman. Thank you, Senator.
    Senator Leahy.

  STATEMENT OF HON. PATRICK LEAHY, A U.S. SENATOR FROM VERMONT

    Senator Leahy. Thank you, Mr. Chairman. I will put a long 
statement in the record, but I do want to thank you for having 
this hearing. It is extremely important and I am glad, 
notwithstanding the weather, that you did not reschedule it.
    I want to thank Secretary Veneman, of course, for being 
here. She and I had a long talk about the hearing yesterday. Of 
course, Deputy Commissioner Crawford, Mr. Torres are coming to 
this hearing on the Department's response to finding the BSE-
positive cow in Washington State a month ago.
    At the outset, I want to recognize the Department of 
Agriculture and the Food and Drug Administration's action in 
responding to what has been a difficult time for American 
agriculture and American consumers. I want you to know that I 
believe you have taken steps in several areas that I believe 
are essential to prevent a serious outbreak of BSE, to be able 
to tame one should an outbreak occur.
    As I told the Secretary yesterday, I joined with the 
Chairman and several others from this committee, Senator 
Roberts and Senator Coleman, who were in South America. This 
issue was raised, I believe, Mr. Chairman, at just about every 
single meeting we had, whether as a head of government or 
ministers of agriculture. I admit that some threw a little bit 
of crocodile tears about it, but there is no question that all 
of them accept the fact that American agriculture pretty well 
sets the standards for safety and they were asking each one of 
us what is going to happen next.
    It is a time for us to examine the steps necessary to 
increase the safety of all Americans. First, I believe we need 
to ban downed cows from entering the human food chain. Clearly, 
there is already opposition to your regulation. Congress may 
need to act and assure these regulations are not rolled back.
    I am pleased the FDA announced yesterday, just ahead of 
this hearing, stricter regulations on the feed we give our 
cows. The announcement yesterday may have been a coincidence, 
but the hearing encouraged them to go forward, another good 
reason for the hearing, Mr. Chairman. Until yesterday's 
announcement, FDA regulations allowed blood to be fed to 
cattle. There is still no restriction on rendering all parts of 
cattle into feed for pigs and poultry, which in turn can be 
entirely rendered and fed back to themselves and to cattle.
    Finally, Madam Secretary, as I said to you yesterday, we 
have to establish a national tracking system for every cow in 
the United States to trace animals from birth to slaughter 
within 48 hours to combat animal disease outbreaks. I know USDA 
has indicated they may soon stop their investigation of the 
remaining 53 animals and cows that were imported from Canada 
with the infected cow because poor record keeping has limited 
their ability to locate these remaining cows. I know that your 
people have been working around the clock to try to do that. It 
is another example of the need for a national animal ID system.
    Madam Secretary, and I will put my full statement in the 
record, I hope you know that all of us up here on both sides of 
the aisle want this to hurt. Again, Mr. Chairman, I commend you 
and Senator Harkin on having this hearing. Thank you for doing 
this.
    The Chairman. Thank you, Senator.
    [The prepared statement of Senator Leahy can be found in 
the appendix on page 78.]
    The Chairman. Madam Secretary and Dr. Crawford, if you 
could come forward, we appreciate very much your patience and 
your attendance at the hearing today. The Honorable Ann Veneman 
is Secretary of the United States Department of Agriculture, as 
we know. Dr. Lester Crawford is a doctor of veterinary medicine 
and has a Ph.D. degree, as well. He is Deputy Commissioner of 
the United States Food and Drug Administration.
    We have copies of statements that each witness has prepared 
and submitted to the committee in advance. We thank you very 
much for that. Those statements will be made a part of the 
record in full. We encourage you to make any summary comments 
that you think would be helpful to the committee's 
understanding of the issues before us and then we will have an 
opportunity to ask questions of each of you.
    Secretary Veneman, welcome. You may proceed.

STATEMENT OF HON. ANN M. VENEMAN, SECRETARY, U.S. DEPARTMENT OF 
                          AGRICULTURE

    Secretary Veneman. Thank you, Mr. Chairman, and thanks to 
all the members of the committee for the opportunity to appear 
here today and thank you for holding this hearing. I also want 
to thank you all for your kind comments about the process that 
USDA has gone through over the past month as we confronted this 
issue which we hoped we would never have to deal with.
    In the interest of time, I would like to submit my comments 
for the record in writing, along with an attached timeline of 
what happened--that was included in our comments--and then just 
summarize and follow through on a few of the issues.
    As you know, on December 23, we received word that a tissue 
sample taken as part of our routine surveillance system tested 
presumptive positive for BSE. We had in place a BSE response 
plan which was first developed in 1990 and has been continually 
updated since then to reflect the latest knowledge about the 
disease and the lessons learned from other countries that have 
had cases of BSE.
    Upon hearing of the BSE find, we immediately began to 
implement the plan. We began an investigation to determine the 
origin of the cow and to identify and locate her offspring and 
cohorts. Ultimately, DNA tests and other documentation 
confirmed that the animal originated on an Alberta dairy farm.
    We focused much of our efforts on 81 animals that we know 
came from the Canadian birth herd. International standards also 
tell us that animals of special significance are those born 
within a year before or after the positive animal. This 2-year 
window is based on animals that are likely to have consumed the 
same feed source. Given that standard, we have now determined 
that there are 25 out of the 81 animals that fit in that 2-year 
window around the birth of the indexed cow.
    Based upon statistical examination of culling rates, we 
would have expected to find that only 11 of those 25 animals 
would still be found alive. In fact, we have found 14 of those 
25 animals of significance. From a statistical standpoint, our 
tracing efforts to date have been remarkable.
    All animals tested in this process so far have tested 
negative. Although the investigation is ongoing, given the 
estimates of the number culled, it is unlikely that we will 
find all the remaining animals. Even in the case of those 
animals that are not found, we would not expect them to pose a 
significant risk to public health or animal health.
    First, we know that based on the international experience. 
Even at the height of the BSE in the United Kingdom, it was 
rare to find more than one or two positive animals in a single 
herd. The Harvard risk assessment also found that the risk of 
spread of BSE in the U.S. is very low.
    Second, our protection systems, including those 
enhancements we announced December 30, are those which protect 
us from widespread cases of this disease. As part of our trace-
forward of the products, we determined that high-risk products, 
such as brain and spinal cord, did not enter the food system. 
Nevertheless, we issued a recall of all of the meat that came 
out of that plant for the day in question.
    We sent a sample of the indexed cow for confirmation to the 
World Organization for Animal Health Reference Laboratory in 
England. We decided to immediately inform the public on 
December 23, prior to the ultimate confirmation in England, 
based on our confidence in the accuracy of the test conducted 
by our scientists at the National Veterinary Services 
Laboratory in Ames, Iowa.
    On December 30, 1 week after the find, I announced a series 
of actions to further enhance our already strong safeguards 
that protect the public health and animal health and to help 
maintain consumer confidence. These included an immediate ban 
on non-ambulatory or so-called downer animals from the food 
system and further restrictions on specified risk materials, 
such as brain and spinal cord tissue, from entering the food 
supply.
    Now, at this point, I would like to answer one of the 
questions raised by Senator Daschle, who indicated that there 
wouldn't be a guarantee on downers from other countries. In 
fact, once we announced these regulations and then put them in 
the Federal Register as interim final rules on the 12th of 
January, we then required the same treatment or equivalent 
treatment from other countries and our exporting partners have 
now implemented the same or similar regulations to those that 
we announced on the 30th. We also announced on December 30 that 
the meat from any cattle tested for BSE will be held until a 
test has been confirmed negative, a so-called test and hold 
policy.
    We were able to act quickly on these actions because of the 
advance planning we had undertaken after the find in Canada but 
before the find on December 23 in the U.S.
    We also announced on December 30 that we will be expediting 
the implementation of a verifiable system of national animal 
identification, and I heard a lot of interest in that subject 
today. Our goal is a nationwide system that is uniform, 
consistent, and efficient.
    In keeping with our commitment to continually review our 
systems, I also announced that an international panel of 
experts would be convened to review our investigative efforts 
and recommend possible further enhancements. They arrived in 
the U.S. last week and began that review. This international 
review team is a subcommittee of the Secretary's Advisory 
Committee on Foreign Animal and Poultry Diseases. Our officials 
have had a positive exchange with them and provided all the 
information that they have requested. The international review 
team will now compile its report for submission in about 2 
weeks and we look forward to their findings and their 
recommendations.
    All of the actions that we are taking are in addition to 
the strong safeguards that we had in place before December 23, 
some of which I have already alluded to. As you may know, in 
November 2001, an independent risk assessment by Harvard 
University found that based on those existing safeguards, BSE 
is highly unlikely to become established in the United States 
should the disease be detected in our country. As a result of 
the Harvard analysis, we announced additional preventative 
actions, such as increased surveillance and the testing of 
certain ground beef products for central nervous system tissue.
    In 2003, we asked Harvard to reassess the situation, taking 
into account the BSE find in Canada in May of 2003. In August, 
Harvard reaffirmed the findings of the initial study.
    Throughout this process, we have been committed to 
maintaining public health, safety and consumer confidence in 
our systems. Some 90 percent of U.S. produced beef is consumed 
domestically, and all indications are that the confidence of 
the U.S. consumer in the safety of American beef remains very 
strong. We believe this is due in part to the quick and 
aggressive steps that we took to protect public health.
    Unfortunately, most of our export markets, including our 
key buyers, Japan, Mexico, Korea, and others, immediately 
closed their markets to U.S. beef after the December 23rd 
announcement. The loss of exports had an immediate impact on 
the cattle market, resulting in an initial drop of 15 to 20 
percent in cattle prices on cash and futures markets. However, 
prices have strengthened over the past couple of weeks and 
markets are now down just 5 to 8 percent from the levels prior 
to the BSE finding, with current cattle prices still above 
year-ago levels.
    Regaining our export markets is a top priority for this 
administration. We are pleased that Poland has become the first 
country to reinstate imports of U.S. beef and we continue 
efforts with our trading partners to resume trade.
    Within days of this finding, we dispatched USDA Senior 
Trade Advisor David Hegwood and Dr. Chuck Lambert, our Deputy 
Under Secretary for Marketing and Regulatory Programs, to Japan 
and South Korea to explain the investigation and the rigorous 
safeguards that we already had in place.
    Earlier this month, U.S. Trade Representative Zoellick and 
I each had very encouraging meetings with the Japanese trade 
minister, and Ambassador Zoellick announced just yesterday that 
he will go to Japan the second week in February to discuss the 
WTO and the beef issue with high-level officials in Japan.
    Two weeks ago, I had a lengthy discussion with Japan's 
Minister of Agriculture Kamei to impress upon him the 
importance of finding a practical solution to allow resumption 
of trade and releasing into commercial channels beef that was 
shipped to Japan prior to December 23. The minister stated that 
Japan is looking forward to resuming trade.
    Dr. J.B. Penn, USDA's Under Secretary for Farm and Foreign 
Agricultural Services, is returning this evening after leading 
a delegation of USDA and FDA officials, including Dr. Crawford, 
who came home early to be here today but was on most of the 
trip, and they had discussions in Japan, the Philippines, Hong 
Kong, and South Korea. These visits have been well received and 
discussions will continue following the completion of our 
investigation.
    We have also had a team visit China to discuss our response 
actions. In addition, I have had numerous conversations with 
the ministers from Canada, Mexico, the Philippines, and others 
on an ongoing basis to keep them informed of our progress.
    It is important to note that both Canada and the 
Philippines have allowed at least a portion of their markets to 
remain open to our beef.
    Dr. Penn and Mr. Bill Hawks, Under Secretary for Marketing 
and Regulatory Programs, traveled to Mexico for productive 
discussions earlier this month. Just yesterday, I again spoke 
with Secretary Usabiaga, my counterpart in Mexico, and Under 
Secretary Hawks will be in Mexico again next week.
    On January 16, I hosted a meeting of my counterparts from 
Canada and Mexico, Minister Speller from Canada and Secretary 
Usabiaga from Mexico. We agreed to develop an enhanced 
consultative process to facilitate a consistent North American 
response.
    In addition, technical teams from Japan and Mexico spent 
several days in the United States meeting with technical 
experts at USDA and the Food and Drug Administration. The 
Japanese team also traveled to the State of Washington to 
review the investigation there, and the Mexicans visited 
processing facilities in Colorado. Another Mexican delegation 
has been visiting the U.S. this week.
    Our efforts to restore our foreign markets continues to be 
a top priority and we urge our trading partners to resume trade 
based on sound scientific principles.
    In summary, our investigation has made a lot of headway in 
the past 5 weeks. We have further enhanced our protection 
systems. Our food supply and the public health remain protected 
and consumer confidence in the beef supply has been maintained. 
We are working diligently to restore our export markets. I am 
very proud of the accomplishments of our very dedicated USDA 
team. As our efforts proceed, we will continue to provide 
complete and timely updates to the public.
    Mr. Chairman, I want to again thank you and the members of 
the committee for holding this hearing today. I look forward to 
discussing all of these issues with the committee members. 
Thank you very much.
    The Chairman. Thank you, Secretary Veneman.
    [The prepared statement of Secretary Veneman can be found 
in the appendix on page 91.]
    The Chairman. Dr. Crawford, you may proceed.

    STATEMENT OF LESTER M. CRAWFORD, D.V.M., PH.D., DEPUTY 
          COMMISSIONER, FOOD AND DRUG ADMINISTRATION, 
           DEPARTMENT OF HEALTH AND HUMAN SERVICES, 
                         WASHINGTON, DC

    Dr. Crawford. Thank you, Mr. Chairman. We appreciate the 
opportunity to participate in today's hearing addressing the 
finding of a BSE-positive cow in Washington State and 
activities of the Federal Government to safeguard human and 
animal health in the United States from BSE.
    I am Les Crawford, Deputy Commissioner, Food and Drug 
Administration. I am pleased and honored to be here with 
Secretary Veneman to describe FDA's contribution to these 
efforts.
    I also want to say, Mr. Chairman, how much we at FDA admire 
the latest shift that Secretary Veneman has taken. Of all the 
countries that have had this disease, and I believe there are 
about 22 now, no country has stepped forward with a more bold 
and aggressive program. We are very pleased to be part of that 
team.
    Our mission is to protect the public health by assuring the 
safety and effectiveness of our nation's human and veterinary 
drugs, human biological products, medical devices, human and 
animal food supply, cosmetics, and radiation-emitting products. 
In fulfilling this mission, the agency is responsible for 
assuring that all FDA-regulated products remain safe and 
uncompromised from BSE and related diseases.
    FDA has a longstanding commitment to protecting consumers 
from BSE. Under the Federal Food, Drug, and Cosmetic Act, FDA 
has used adulteration and misbranding provisions to prohibit 
ruminant feed from containing specified mammalian protein, and 
the same adulteration and misbranding provisions apply to human 
food. Further, for medical products that require premarket 
approval, such as drugs and medical devices, FDA has addressed 
safety concerns related to BSE through requirements of the 
application and approval process.
    Yesterday, I am pleased to report that Secretary Thompson 
and FDA Commissioner Mark McClellan announced that the agency 
intends to issue rules to ban from human food and cosmetics and 
dietary supplements a wide range of material from cattle so 
that the same safeguards that protect Americans from exposure 
to BSE through meat products also apply to food and other FDA-
regulated products. We are also adding a series of additional 
firewalls in our feed rule that will make our efforts to 
protect the public health even more robust.
    In my testimony, I am going to briefly describe our current 
protections against the spread of BSE and also discuss the 
additional science-based steps we announced yesterday.
    In 1998, the USDA commissioned the Harvard Center for Risk 
Analysis to conduct an analysis and evaluation of the U.S. 
regulatory measures to prevent the spread of BSE in the U.S. 
and to reduce the potential exposure of U.S. consumers to BSE. 
The Harvard study concluded, among other things, that even if 
introduced into the United States, due to the preventative 
measures currently in place in this country, BSE is extremely 
unlikely to become established in this country.
    Our existing firewalls are effective and our new ones will 
add even greater security and enhanced public confidence. Our 
existing firewalls are based on a five-prong regulatory 
strategy.
    The first one is formed through regulations and enforcement 
to protect U.S. borders from potentially infective materials 
utilizing a regime of import controls. Major restrictions on 
imports were put in place by the USDA beginning in 1989 and 
more restrictive import controls have been introduced as we 
have learned more about the science of BSE and as the worldwide 
epidemiology has changed. FDA remains a committed partner with 
the Department of Agriculture and Customs and Border Protection 
in protecting our borders.
    The second firewall is surveillance of the U.S. cattle 
population for the presence of BSE. Surveillance of the cattle 
population is the primary responsibility of USDA, and USDA has 
recently announced steps to increase surveillance.
    The third firewall is prevention of the amplification of 
BSE through feed provided to cattle and other ruminants, and 
this responsibility falls primarily on FDA. FDA's animal feed 
ban regulations form the basis of this third firewall and have 
been cited as one of the most significant elements needed to 
prevent the spread of BSE in the United States. FDA implemented 
this rule to establish in our country feeding practices 
consistent with the best available science to prevent the 
spread of BSE throughout herds of U.S. cattle. We have taken 
intensive steps to get an extremely high level of compliance 
with this feed ban, and as a result, we have been able to work 
with the animal feed industry to achieve more than a 99 percent 
compliance rate and we intend to continue to work for full 
compliance.
    As a result of this rule and the other firewalls that make 
up the U.S. framework, the risk of exposure to BSE through 
products FDA regulates remains extremely low in the United 
States.
    The fourth firewall is making sure that no bovine materials 
that can transmit BSE will be consumed by people. Even if a 
BSE-positive cow made it through all of the previous firewalls, 
which is extremely unlikely, it would not pose any risk to 
people. USDA and FDA have long had steps in place to help 
prevent any possible exposure to BSE in bovine products. 
Recently, USDA announced additional major steps to prevent any 
of the tissues known to carry BSE from entering the beef supply 
as well as to restrict use of certain downer cows that might be 
at higher risk of carrying BSE. Yesterday, we announced 
comparable measures to prevent human exposure to the bovine 
products that potentially harbor BSE.
    The fifth firewall is effective response planning to 
contain the potential for any damage from a BSE-positive animal 
if one is discovered at some point in the system. This response 
plan went into place immediately upon the discovery of a BSE-
positive cow in Washington State on December 23. We have 
inspected and traced products to 22 facilities, including feed 
mills, farms, dairy farms, calf feeder lots, slaughterhouses, 
meat processors, transfer stations, and shipping terminals. We 
have accounted for all the high-risk materials related to the 
BSE-positive cow that FDA regulates and none have gone into 
human or animal consumption. Moreover, FDA has conducted 
inspections at all the rendering facilities involved and found 
they were fully in compliance with our feed rule.
    The goal of our firewall after firewall approach is to 
provide full protection of the public against BSE without 
adding unnecessary cost or restricting the consumption of safe 
beef products. Working with USDA, we intend to maintain an 
extremely high level of compliance with each firewall. In 
addition, a multi-layered approach makes sure that even if each 
firewall doesn't function perfectly, the U.S. consumer is 
nonetheless protected from exposure to the BSE-infected 
material.
    To maximize protection afforded by the feed regulation, FDA 
has also developed and implemented a BSE ruminant feed ban 
inspection compliance program and established the goal of 100 
percent compliance. FDA and its State counterparts conduct, at 
least annually, BSE inspections of 100 percent of known 
renderers, protein blenders, and feed mills processing products 
containing material prohibited from use in ruminant feed.
    As of December 20, 2003, FDA had received over 26,000 
inspection reports. The total number of inspection reports 
represent 13,672 firms, 1,949 of which are active and handle 
materials prohibited from use in ruminant feed. The 1,949 
active firms that handle prohibited material have been 
inspected by FDA, and as of December 31, 2003, only five were 
found to have significant violations resulting in official 
action indicated. FDA is working with these firms to bring them 
into compliance.
    In addition, FDA remains firmly committed to bringing 
better science to the public to provide better health 
protection at a lower cost. That is why a key part of our 
strategy involves fostering the development of better 
technologies to deal with the disease. To enhance the ability 
of our public health system to detect prohibited materials in 
animal feed, we will continue to support the development and 
testing of diagnostic tests to identify prohibited materials. 
As these tests are developed, FDA will evaluate the utility of 
such tests promptly and thoroughly.
    Although the risk of exposure to BSE in the United States 
remains extremely low and the measures in place are working as 
a result of the recently discovered infected cow in the State 
of Washington, yesterday, we announced the following further 
measures. We announced that we will publish an interim final 
rule that will ban the following materials from FDA-regulated 
human food, dietary supplements, and cosmetics: Downer cattle--
all bovine sources for these products must be animals that have 
passed USDA inspection for human food; dead cattle--these are 
cattle that die on the farm before reaching the slaughter 
plant; specified risk materials that are known to harbor the 
highest concentrations of the infectious agent for BSE, such as 
the brain, skull, eyes, and spinal cord of cattle 30 months or 
older; the product known as mechanically separated beef, a 
product which may contain SRMs. Meat obtained by advance meat 
recovery may be used since USDA regulations do not allow the 
presence of SRMs in this product.
    Concerning animal feed, we announced that we will be taking 
the following four additional actions. First, FDA will act to 
eliminate the present exemption in the feed rule that allows 
mammalian blood and blood products at slaughter to be fed to 
other ruminants as a protein source. Recent scientific evidence 
suggests that blood can carry some infectivity for BSE.
    Second, FDA will also ban the use of poultry litter as a 
feed ingredient for ruminant animals.
    Third, FDA will ban the use of plate waste as a feed 
ingredient for ruminants. Plate waste consists of uneaten meat 
and other meat scraps that are currently collected from some 
large restaurant operations.
    Fourth, the Food and Drug Administration will act to 
further minimize the possibility of cross-contamination of 
animal feed by requiring equipment, facilities, or production 
lines to be dedicated to non-ruminant animal feeds if they use 
so-called prohibited protein.
    Finally, we are increasing our inspection of feed mills and 
renderers in 2004. Now, 2001 base funding for BSE-related 
activities was $3.8 million. We shifted resources internally in 
2001 and received a substantial increase from Congress in 2002. 
Our funded level for 2004 is $21.5 million, almost a fivefold 
increase over the 2001 base. We will conduct 2,800 inspections 
and will make our resources go even further by working with 
State agencies to fund 3,100 contract inspections of feed mills 
and renderers and other firms that handle animal feed and feed 
ingredients. Through partnerships with the States, FDA will 
receive data on 700 additional inspections, for a total of 
3,800 State contract partnership inspections in 2004.
    The agency looks forward to continuing to assist Congress 
as it evaluates the risk associated with BSE and considers 
science-based approaches to further strengthen regulatory 
protections and bolster the resources available to assure that 
BSE does not present a threat to human or animal health in the 
United States. Mr. Chairman, I thank you very much.
    The Chairman. Thank you, Dr. Crawford. Thank you, Madam 
Secretary.
    [The prepared statement of Dr. Crawford can be found in the 
appendix on page 118.]
    The Chairman. My first question to Secretary Veneman is do 
you recommend any change in our food safety statutes as a 
result of your experience in dealing with this case of BSE?
    Secretary Veneman. Thank you, Mr. Chairman. At this point, 
we have not recommended specific changes to our food safety 
statutes. All of the actions that we have announced thus far 
have been done through our existing authorities by announcing 
and implementing new regulatory measures. We are awaiting the 
results of the recommendations of the international panel that 
I discussed in my testimony to see if they recommend additional 
actions, and whether or not that would include anything that 
would require statutory change, I cannot predict changes at 
this point.
    The Chairman. I wonder also whether there would be any 
necessity to enact new authorization for funding on a 
supplemental basis or in next year's budget request to enable 
you to discharge your responsibilities under the law in 
connection with this case of BSE?
    Secretary Veneman. Mr. Chairman, we are looking at funding 
possibly through the CCC for moneys that we may need for 2004, 
particularly for animal identification. In our 2005 budget, we 
are also looking at enhancing measures pertaining to BSE. We 
will be announcing our 2005 budget next Monday, on the 2nd of 
February.
    The Chairman. Dr. Crawford, I wonder whether or not your 
agency has the adequate statutory authority it needs to take 
the steps necessary to ensure the protection of Americans 
against harm from this case of BSE.
    Dr. Crawford. Mr. Chairman, we are evaluating that as we go 
forward with these new feed ban changes and we look forward to 
working with the Congress in terms of the authorities we have 
and what might be done in order to consider whether or not we 
need more. We don't have a position on that at this point, but 
we are very interested in that because we are aware of, as we 
expand these activities under the 1997 feed ban rule, we are 
going further than was anticipated then, and so that 
possibility certainly exists, that we will need to review the 
authorities.
    The Chairman. In connection with the budget submission that 
we will be receiving, is there any need that you anticipate for 
a change in statutory authority for spending money by the FDA 
to carry out your duties in connection with this case of BSE?
    Dr. Crawford. No. We don't think this stresses the system 
in that way and we believe that we are working well with USDA 
and obviously it has been a coordinated approach. I have no 
reason to think that we need anything further.
    The Chairman. Yu are both to be congratulated for the 
dispatch and the concentration of effort that you made to make 
Americans aware of this situation, to disclose the discovery of 
the case of bovine spongiform encephalopathy when you did and 
as you did. I was very impressed by the fact that you conveyed 
everything you were doing with full transparency to the public, 
engaging our trading partners around the world, too, and 
acquainting them with all the facts and the steps that we are 
taking to ensure continued safety of American beef exports. 
Hopefully, that will pay off for us in the decisions in the 
near future to continue to buy and resume purchases of American 
beef products.
    Do you have any expectation along that line, Madam 
Secretary, in talking with our Trade Representative or other 
members of the cabinet or at the White House at the highest 
levels, of steps that are going to be taken to try to 
accelerate the purchase of U.S. beef products in the future?
    Secretary Veneman. Again, Mr. Chairman, we have been very 
proactive on the trade front. As I indicated in my testimony, 
we immediately dispatched a team to Japan and Korea even in 
that week between Christmas and New Year's. We must keep in 
mind that this was a difficult time of the year for so many 
people that gave up a lot of holidays to do the right thing in 
terms of our response to this issue.
    We then had two of our under secretaries travel to Mexico. 
Mexico is our No. 1 market by volume, our No. 2 by value. Japan 
is our No. 1 by value. Those are two of our biggest markets, 
along with Korea. As I indicated, we have a team that is just 
coming back today from Japan, Korea, the Philippines, and Hong 
Kong.
    Ambassador Zoellick and I both had extensive meetings with 
the trade minister from Japan. We have had--and we continue--
ongoing dialog, in person and on the telephone. We have had 
teams of experts from both Mexico and Japan in the United 
States.
    We are hopeful that we can resume trade as quickly as 
possible. I would remind the committee, however, that in the 
case when we terminated all imports from Canada after their May 
20 find, it took us until just the end of August to resume 
imports from Canada AFSU a completion of the investigation. A 
number of countries are looking at our actions and looking 
forward to the recommendations of our committee. We will review 
the actions that we have taken to basically mirror what we did 
in response to the find in Canada.
    We are appreciative of the fact that Canada maintained 
their market open for boxed beef. This was similar to what we 
did in terms of opening up our market to boxed beef from 
Canada. The Philippines keep their market open and Poland just 
opened. We are seeing some progress.
    We continue to work very closely and aggressively with our 
trading partners at every level. Ambassador Zoellick and I talk 
frequently about our actions and those of our team in terms of 
opening of trade.
    The Chairman. Thank you very much.
    Senator Harkin.
    Senator Harkin. Thank you very much, Mr. Chairman.
    Again, Secretary Veneman, as I said in my opening 
statement, you have done a great job at the Department of 
Agriculture in responding to this and getting on top of this 
situation.
    My line of questions is going to take a little bit 
different tack, and this is a question both for you, Secretary, 
and for Dr. Crawford, and I will ask Dr. Torres later when he 
comes up. I will start by just asking this question. How much 
increased research on BSE or TSE, the transmissible form, and 
prion--or ``pry-on,'' I have heard it pronounced both ways. 
Maybe one of you can tell me if that is acceptable, or whatever 
it is. I have heard it both ways. How much increased research 
on BSE, TSE, prion research in general do you believe is needed 
now that we have experienced a BSE case in the United States 
and what increases in our diagnostic capacity are needed?
    Secretary Veneman. Mr. Harkin, I don't know that I can give 
you a number on increases in research per se, but there is 
research going on not only in USDA but on the human health side 
in some HHS agencies, including National Institutes for Health. 
We are part of that coordinated process as we look to some of 
the kinds of research that is being done.
    As you say, research is important in the case of these 
prion diseases, primarily because until the find in England in 
the 1980's or so, we really didn't know much about this 
disease. In many ways, we are in our infancy in some of this 
research. There is a lot of research being done in other 
countries, there is a lot of research being done in the private 
sector, and we are going to continue to be very proactive.
    As you now, we recently made a pre-budget announcement 
about funding the Ames Laboratory in Iowa, and I appreciate you 
being with me for that announcement.
    Senator Harkin. Thank you.
    Secretary Veneman. That is a significant amount of money 
that we will be asking the Congress for. That was going to be 
in our budget before this find. This modernization of the Ames 
Laboratory is very important because this is our flagship 
laboratory and research facility as it pertains to these prion 
diseases.
    We will be happy to work with you and other members of the 
committee to look at some of these needs, but the Ames 
announcement is very important in this regard.
    Senator Harkin. Are you the central person, department, on 
this research? Is it NIH? Is it FDA? Who is coordinating all 
this research? Some of it is being done by you. You say some is 
being done in other countries, some being done in the private 
sector. I don't know what is being done through NIH. I am 
trying to find out right now. FDA may have something going on 
that I don't even know about. Who is coordinating all this?
    Secretary Veneman. Well, through our research agencies, we 
are looking at a coordinated effort. Particularly in light of 
this particular find, we will strengthen the coordination and 
find ways to better coordinate even than what has been done in 
the past. As we look at all of these prion disease issues, 
there are still a lot of unanswered questions.
    Senator Harkin. Did you have a response to my question?
    Dr. Crawford. Yes. I agree with the Secretary. The disease 
has always been considered to be a veterinary medical disease 
with public health implications, so the lead for the 
coordination should, in my view, continue to be USDA. Now, the 
National Institutes of Health has conducted research on this 
class of diseases, as you know, for many, many years, and as a 
matter of fact, a worker at NIH discovered the first of these 
diseases in terms of what actually caused it.
    On your question about the prion, the man who----
    Senator Harkin. Now wait. Secretary Veneman called it 
``pree-on.''
    Dr. Crawford. Well, that is the difference between the two 
departments.
    [Laughter.]
    Dr. Crawford. The man who discovered the entity does call 
it a ``pree-on''. He was on our TSE advisory committee, and I 
want to expand on that a little bit. The Secretary is right, as 
always.
    [Laughter.]
    Dr. Crawford. There are committees that are coordinated in 
this way. There are research committees for the prion class of 
diseases in the National Institutes of Health that have 
representatives from the Department of Agriculture and also 
from FDA itself on them, and the reverse is true in USDA.
    The principal one that we pay attention to is the TSE 
advisory committee that this Dr. Prusner used to be on. I was 
on before I came back to the government. It has gotten a lot of 
notice because it puts in the restrictions on blood donations 
and also the consumption of gelatin and the use of gel-caps and 
these kinds of things and it has a USDA representative on it 
and always has had as a full voting member. As a matter of 
fact, I believe there are more than one at the present time. 
The coordination is good.
    I would----
    Senator Harkin. Excuse me. Let me get to my point. Do we 
need any increase in diagnostic capacity?
    Dr. Crawford. Yes. We are working on three things now. One 
is that our Center for Food Safety is in the final year of 
funding a 2-year project to develop sensors to detect abnormal 
prion protein in food. Work on the project should be completed 
in early 2004. I am sure it will branch out and we will need 
some more work.
    There are no tests for the rapid diagnosis of new variant 
CJD in people. They haven't been validated. A reliable blood 
screening test for VCJD, the kind that occurs in people, is an 
extremely important goal and it hasn't been done.
    FDA has conducted and supported research efforts in the 
process of validating a rapid DNA-based method for the 
detection of animal-derived materials in animal feed. We don't 
have that now, either. We have to depend on other means for 
doing it. There is a lot of work.
    Senator Harkin. That is what I assumed. One last thing is 
why has the U.S. chosen 30 months as the, quote, ``age of 
concern'' for defining specified risk materials while the EU 
has chosen an age of 12 months? Since BSE can be detected in 
animals younger than 30 months, how confident are scientists 
that there is no risk of material from cows under 30 months 
being ineffective? Is there a period where prions are detected 
in an animal but not believed to be infectious?
    Secretary Veneman. We chose the 30-month level based upon 
the current international standards under the OIE. That is a 
regulation that is out for public comment at this point, so I 
assume that we may get some comments on the number of months 
that is in it. It is based upon the current international 
standard and we really do need to rely on the OIE for the basis 
of setting the internationally recognized scientific standards. 
We have tried to utilize those recommendations from the 
international organization as much as possible.
    I might just note in response to your previous question, 
one other announcement that we made recently is a partnership 
funding on the bovine genome mapping project. We can map 
genomes of various animals and insects and plants, and learn a 
lot more about them. We are hoping that by getting bovine 
mapping project started, we will learn much more about this 
disease down the road. This will give us more of the answers to 
some of the research that you are talking about.
    Senator Harkin. Thank you, Mr. Chairman. I have a second 
round.
    The Chairman. Senator Daschle, I am going to recognize you. 
I understand you have another commitment.
    Senator Daschle. Thank you very much, Mr. Chairman. I would 
like to follow-up, if I could, with a comment you just made 
with regard to downer cattle, Madam Secretary. You indicated 
that other countries that have now exported to the United 
States have adopted, is it exactly the same regulations or the 
equivalent of our regulations? I guess there is some confusion 
as to what are they actually agreeing to.
    Secretary Veneman. What we require is that they have the 
same or an equivalent regulation in place. This regulation 
obviously wasn't the normal process, where you go out for 
notice and public comment and as a proposed rule. I've spent a 
lot of time to working with other countries. We put these out 
as interim final rules because of the change in status of our 
country of now finding BSE.
    We notified all of the countries that export to us. We are 
working with them to ensure that they have the same or 
equivalent regulations in place. For example, Canada did 
institute a downer ban mirroring what we did because they do 
export the boxed beef to us.
    Senator Daschle. Do I understand you to say that all 
countries that are now exporting to the United States have 
equal or equivalent regulations with regard to downer cattle? 
We have 100 percent compliance?
    Secretary Veneman. Yes.
    Senator Daschle. How do we determine equivalency?
    Secretary Veneman. Well, we have a team of experts in the 
Food Safety Inspection Service that work with our trading 
partners, that review regulatory requirements as well as review 
plants in other countries to determine that the food safety 
inspection process in the foreign country is indeed equal to or 
equivalent to that which we have in the United States. That is 
a requirement to ship into this country.
    Senator Daschle. There is some form of a certification of 
equivalency that they have to agree to or comply with?
    Secretary Veneman. Yes. Countries have to maintain their 
status as being equivalent to our system. We consistently do 
reviews of countries that ship to us and oftentimes we de-list 
plants or whole countries because they are not complying with 
our equivalence requirements.
    Senator Daschle. Again, I commend you for making progress 
with these countries. I guess Dr. Crawford listed and you have 
listed other actions that the United States has taken 
unilaterally, and again, the point I made earlier is one that 
applies here. While it appears we have had good cooperation 
from our trading partners with regard to downer cattle, it 
would be great if they could also comply with these other steps 
we are taking.
    Because of our boundaries and because of our trade 
practices, clearly, these steps are only so good as it applies 
to our domestic production. We still don't have any assurance 
that actions taken in other countries will preclude the 
problems that we are designed to address with regard to these 
higher safety standards without insisting that they take them, 
too.
    Let me ask a second question with regard to the point I 
made in my opening remarks with regard to regulation and 
implementation. We are going to be implementing and 
promulgating the regulations with regard to raised and wild 
fish in September. The law requires that we also promulgate the 
regulations on country of origin labeling across the board in 
September, even though they wouldn't be implemented for another 
year. Is it still your intention to comply with the law in that 
regard?
    Secretary Veneman. Yes. Let me address briefly the comment 
you made about other countries and taking equivalent actions. 
The action we took with regard to specified risk material 
mirrors the action that Canada took following their find. We 
now have, at least in the U.S. and Canada, equivalent 
regulations with regard to specified risk materials. The 
conversations that I had when I hosted the meeting with my 
counterparts from Mexico and Canada is how do we find even more 
uniformity in the regulations that we promulgate on regulatory 
issues that would pertain to BSE?
    On the issue of country of origin labeling, as you know, 
this was part of the Farm bill and it required basically a two-
stage regulatory process. The first part was that the USDA 
implement voluntary guidelines or regulations on voluntary 
country of origin labeling. That indeed has been done and those 
were implemented on time.
    We then began also the process of the regulatory process 
for the mandatory country of origin labeling regulations. We 
began that process within the time frame specified by the law. 
A proposed rule is now open for public comment. We will 
continue to take public comments on that.
    The omnibus appropriations bill delays our implementation 
of that bill a 2-year period of time. This was done to provide 
time to look again at the statute legislatively.
    The USDA has continued to follow the time frames that were 
specified in the law and that we have implemented the 
regulations according to schedule.
    Senator Daschle. Well, the promulgation of the regulations 
and the implementation are two distinct actions. Do I 
understand then you to say that the promulgation of the 
regulations will be on schedule, which as I understand it is 
September of this year?
    Secretary Veneman. We have continued the regulatory 
process. The rule is still out as a proposed rule for comment. 
The office of General Counsel's in USDA is looking at how to 
implement/promulgate in light of the language that is in the 
appropriations bill.
    Senator Daschle. Mr. Chairman, I just emphasize again, that 
the law is very clear and I would like to follow-up later, if I 
could, with you with regard to the requirement that they be 
promulgated on time and that we understand because of the 
appropriations bill implementation will be postponed. If there 
is some confusion about that, we need to make some adjustment 
in whatever form required, because the law is fairly clear. I 
would love to get more information from you about that.
    Secretary Veneman. We will be happy to work with you. As I 
said, the regulatory process is continuing as proposed at this 
point in time. We have not made any changes in the process. It 
is ongoing since the appropriations language was implemented.
    Senator Daschle. I will not ask the question, I just ask 
that you answer it for the record, but I would like to know, we 
have about 200 million pounds of beef that was supposed to be 
exported and it is still on the high seas. We don't want it to 
come back into the domestic market. It can't go into the 
foreign markets because of the prohibition by most countries to 
accept U.S. product today. I would be interested in knowing 
what the Department of Agriculture may be contemplating with 
regard to how to deal with that product.
    Mr. Chairman, I thank you for your courtesies and 
appreciate your answers, Madam Secretary.
    The Chairman. Thank you, Senator.
    Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman, and welcome, 
Madam Secretary and also Dr. Crawford.
    When I was turning on the heater to my car to get the ice 
off of the windshield this morning, I went back into the house 
and happened to spot television and it had something of note in 
regards to you. They were announcing the Academy Awards and the 
nominees and I understand that the nominee for the best 
supporting Secretary for Agriculture for the real life drama, 
``Beef Exports: Something Has Got to Give,'' and the movie, 
``Beef Biscuit,'' and ``Lord of the Feedlots''----
    [Laughter.]
    Senator Roberts [continuing]. That you were the only 
nominee. You are probably deserving of not an Academy Award. As 
I say, these are real life dramas.
    Second, there have been 15 Senators, maybe 16, all 
extolling your virtues. That is a record, more especially with 
a Secretary of Agriculture, on the job that you have done.
    Now, Senator Leahy and I constantly get reminders, since 
this is televised, that there may be a glare that could be of 
some difficulty, so I am going to loan him this after I am 
through with it, but to join you in your support for consumer 
confidence, I have the ``Beef, It's What's For Dinner'' cap 
that I thought I would put on and then we would continue the 
questions, if that would be all right with you.
    Secretary Veneman. It's fine with me.
    Senator Roberts. Congratulations on your nominations.
    Senator Leahy. Senator Roberts, would you----
    Senator Roberts. I am not yielding.
    Senator Leahy [continuing]. Would you put----
    Senator Roberts. I am not yielding. We will change the hat 
in just a minute.
    [Laughter.]
    Senator Leahy. I was going to say, putting the hat on 
changed the whole dynamics of the lighting in this room.
    Senator Roberts. Yes.
    [Laughter.]
    Senator Roberts. I will just have to make this part back 
here a little bigger when I give it to you.
    [Laughter.]
    Senator Roberts. Secretary Veneman, it has been suggested 
by some--not some, a lot--that we should be testing every 
animal slaughtered in the United States, and I understand these 
arguments and it is a policy discussion. I am concerned that 
such suggestions may not be based on science and would result 
in a tremendous new burden on the industry in regards to the 
economy. Does the best science indicate that it is not 
necessary to test all animals, particularly those under 30 
months, although the question by Senator Harkin was a good one? 
What is the estimated cost per herd and to the total market if 
we were to test every animal?
    Secretary Veneman. Senator, first of all, we are testing in 
accordance with internationally recognized standards. The OIE 
has a rather complicated formula by which they identify the 
kinds of animals that are at highest risks and the amount of 
tests that you ought to be conducting based upon the risk level 
of your country. That is how we have been conducting our 
testing program. As you know, we are going to about double our 
tests this year, from about 20,000 to about 40,000. Even with 
the 20,000, we were well in excess of OIE guidelines.
    The other thing that we are doing is we are specifically 
asking the international committee, the review committee, to 
give us recommendations in terms of testing. We think it is 
important that we have that international committee--the 
experts on BSE from around the world--to give us guidance on 
testing. We do know that we clearly exceed what the OIE 
guidelines would require for testing. The OIE does not 
recommend the testing of every animal. They recommend a 
representative sample to ensure that you are able to detect the 
disease to a high level of confidence.
    Senator Roberts. I understand the integration of the U.S. 
cattle market, but I want to relay to you a lot of concern from 
producers, and I am sure this is true with every beef cattle 
State, over this event being labeled a North American problem. 
Since it was obviously two cattle from Canada that were 
diseased, does calling it a North American problem hurt the 
U.S. in trying to reopen our export markets? I have been trying 
to think of something else we could call it other than just a 
Canadian problem, but I haven't been able to do that. Has that 
posed a problem for us? I know it has posed a problem at least 
in the minds of a lot of producers.
    Secretary Veneman. Regarding the reference to this being an 
issue of North America--I don't know about calling it a North 
American problem-- but the fact of the matter is there has been 
a lot of trade in animals and animal products in North America. 
We have quite an integrated market, which has been obviously 
disrupted by the find in Canada on May 20, 2003. Our producers 
do have a lot of interrelationships in terms of trading cattle 
back and forth among the three countries involved in North 
America.
    That is one of the reasons we think it is important to work 
together on our regulatory structures. They need to be as 
uniform as possible in terms of what we require with regard to 
BSE, because we want to make sure that we all have protections 
in place so that this disease does not spread.
    Both of these cattle, the one found in Canada in 2003 and--
the one found in May, and the one found in December in the 
United States, which also came from Canada, both predated the 
feed ban. The feed ban went into effect in Canada and the U.S. 
in 1997. Both these cattle were born before the feed ban, which 
hopefully can explain how these cattle might have gotten this 
disease.
    In terms of our trading partners, it is important to 
emphasize the actions that we, the United States, are taking. 
There are also protections in terms of uniform regulations to 
the greatest extent possible with our trading partners to the 
north and the south.
    I understand the question you are raising, but it is 
important that we understand it in a global context, as well.
    Senator Roberts. Prior to the discovery, and Mr. Chairman, 
I only have about two more questions and I apologize to my 
colleagues for the time, prior to the discovery of the diseased 
animal in Washington State, there were some international 
discussions and they were ongoing in regard to changes to any 
international guidelines for countries that have experienced 
isolated cases of BSE, specifically changes that would keep an 
entire country's exports from being suspended in such a 
situation.
    Are these discussions continuing on this issue or were they 
simply suspended with this new issue? What kind of support are 
we receiving from the other major beef exporting countries in 
this regard?
    Secretary Veneman. I thank you, Senator, for bringing that 
up because the U.S., Canada, and Mexico, after the Canadian 
find in May, I signed a letter to the OIE asking them to look 
at this whole issue. When we were made aware of the find of 
Canada, we immediately cutoff trade because that is what our 
process told us to do.
    What we are now learning is that we are in a situation 
where there was a single animal. There is a single animal here. 
Most of our trading partners took equivalent action, the same 
action as we took against Canada and we have taken against 
every other country where there has been a BSE find.
    In light of the knowledge that we now have about the 
disease, what we have learned from the outbreak in Europe, from 
doing the Harvard risk assessment, the importance of banning 
ruminant-to-ruminant feeding because that is the way this 
disease spreads all around the world people are realizing that 
the trade actions that one country would take against another 
in the event of a single find, should be reviewed.
    Clearly, when we opened up to the lowest-risk product from 
Canada, we were taking a step in that direction. Working with 
the OIE, we are asking the OIE to specifically look at this 
question and make further recommendations which are expected 
this spring.
    Yes, indeed, we are working with a number of other 
countries around the world through the international 
organizations at ways to make sure that a find in a country 
doesn't become a major trade problem. In both Canada and the 
U.S. thus far, it has been a single find. When you look at the 
kinds of precautions that we have taken, both in terms of our 
feed ban as well as what we have taken in terms of the kinds of 
risk materials we have taken out of the food supply, we have 
taken the kind of precautions that protect public health and, 
therefore, it should not impair trade.
    Senator Roberts. I have a question for Dr. Crawford. We 
have heard a lot about inspections and the current compliance 
rate at the feed mills in regards to feed inspections. Can you 
tell us what an inspection entails very briefly? For example, 
is any ruminant feed tested during these inspections to ensure 
that the meal does not include any banned material?
    Dr. Crawford. Yes. Essentially what we do, Senator, is we 
come into a plant--these are unannounced inspections--we come 
into the plant. We evaluate their records. We primarily want to 
know where they source the ingredients from and whether or not 
they actually are using meat and bone meal. The technical 
violations that have been reported in terms of getting our 
compliance rate up to 99 percent have generally been their 
inability to keep records or to keep records that satisfy FDA.
    We do have--we are using microscopy now, basically using 
microscopes to examine the feed if we have any doubts. Just 
recently, we had a shipment of non-meat feed that was sent in 
from Canada and we were able to detect the presence of some 
animal protein in there and we, of course, took regulatory 
action. In the plants, we do the same thing. We have a test. We 
want to have a better test so that we basically have a chemical 
test that is very fast, very accurate, rather than having to go 
through this laborious process of using the microscope, and we 
think that is not very far off.
    We are able to do both things. We check the records, which 
is the strongest thing we have to deal with, and the second 
thing is that when we have doubts, we actually look at the feed 
samples and evaluate them for the presence of animal protein.
    Senator Roberts. That gets back to Senator Harkin's comment 
in regards to research.
    I am going to ask you a question that has nothing to do 
with BSE, Madam Secretary. It is not BSE related and it is sort 
of a hand grenade without a pin in it. There is another factor 
at play in the beef industry that should be raised. As you 
know, there were reports last week that the administration had 
decided to take sugar off the table--we have some Senators here 
that are very instrumental in that and I understand that--in 
regard to negotiations of a free trade agreement with 
Australia. What I want is assurance that the administration 
will not provide excessive concessions to other commodities, 
more especially beef and in reforming the Australian Wheat 
Board, in exchange for taking sugar off the table.
    Secretary Veneman. Mr. Roberts, I am fully aware of the 
concerns that you are raising and certainly we have heard a 
number of the same concerns expressed in conversations that we 
have had with various people. I have discussed this issue on 
several occasions with Ambassador Zoellick. As you know, every 
trade agreement is a balance of give and take. The agriculture 
issues are particularly difficult in the Australia agreement. 
We are certainly not at a point yet where concessions are being 
given in any specific commodity. I pledge to you to continue to 
work closely with Ambassador Zoellick on these issues because I 
know of the concerns of so many people that represent 
agricultural interests.
    Senator Roberts. We have a similar problem in regards to 
Iraq and that State Grain Board in reference to purchasing 
wheat from Australia to a criteria that used to be Saddam 
Hussein, and I understand that that has been rescinded and that 
the provisional government will try again to say, OK, look at 
all the different criteria so that you could, i.e., Iraq, 
purchase grain from the United States. It is in that same vein 
and I would expect that these negotiations with the 
Australians, who have been our friends, will be meaningful 
dialog.
    Thank you, Mr. Chairman. I apologize for the time.
    The Chairman. Senator Conrad.
    Senator Conrad. Thank you, Mr. Chairman.
    Earlier, Madam Secretary, I attributed a decision made to 
ban the feeding of cow blood and chicken waste to cattle to 
USDA action. Apparently, it was FDA action, so I want to 
correct that for the record. I assume you support that move by 
the FDA. I do think it is--I see you nodding. It was the right 
move to take.
    I must say, in reading what poultry litter consists of, 
they said it consists of bedding, spilled feed, feathers, and 
fecal matter swept from the floors of chicken coops. I don't 
know why that was ever permitted to be fed to cattle. Do you 
have any idea how widespread that practice was?
    Dr. Crawford. We don't think it was very widespread. It 
obviously would occur, if it does occur, in those areas that 
have both a significant chicken industry or turkey industry and 
also cattle, and that wouldn't include very many parts of the 
United States. I suspect that it wasn't very widely used.
    Senator Conrad. Madam Secretary, would you agree that that 
is a most unwise practice and this ban is welcome?
    Secretary Veneman. Well, I certainly agree with the ban. It 
has been one that has certainly gotten a lot of attention and a 
lot of questions have been raised about it. We have been 
working closely with FDA or the actions that they have decided 
to take and are supportive of those actions.
    Senator Conrad. Dr. Michael Hansen, a scientist at 
Consumers Union, said that is a good step, but it is not good 
enough. He said a remaining loophole is allowing rendered 
matter from cows to be fed to pigs and chickens, and rendered 
pigs and chickens to be fed back to cows. In theory, that 
sequence could bring the disease full circle back to cows. In 
Europe, cows cannot be fed any animal matter. What is your 
reaction to Dr. Hansen's criticism that we are still allowing 
something here that could cause a problem?
    Dr. Crawford. The actions that we take will be the subject 
of an interim final regulation, as you know, so they have to be 
under the FDA law, as you know far better than me, science-
based. There has to be a risk, either an animal health risk or 
a public health risk, and this has to be accepted in the 
scientific community. That is not the case. Pigs and chickens 
are not known to be susceptible to BSE and so we do not believe 
there is a risk in terms of this, and yet it is a useful animal 
protein. We would respectfully disagree with Dr. Hansen.
    We have discussed this with him and with Consumers Union 
and are aware of their disagreement with our conclusions. We 
will continue to discuss it with them and we also will continue 
to evaluate this. At the present time, the scientific consensus 
holds that pigs, chickens, and turkeys are not susceptible to 
BSE so there would be no basis for prohibiting the feeding of 
this material to them.
    Senator Conrad. All right. Madam Secretary, let me just ask 
you, in your testimony--this is on the question of whether 
there was a gap in the reporting of knowing it was a Canadian 
cow--you say, ``On Saturday, December 27''--this is from your 
testimony, page four at the bottom--``we learned that the ear 
tag matched that of a Canadian cow that was exported to the 
U.S. We made the public announcement of that information that 
same day.'' Your testimony is on December 27, you learned that 
there was a Canadian tag and made the announcement that same 
day.
    On January 10, I had a hearing in North Dakota on this 
question. Glen Ullin, North Dakota rancher Terry DuPong said 
that cattlemen knew the infected Holstein was imported from 
Canada days before the USDA made it public. He said the cow had 
a Canadian export ear tag. He is a member of R-CALF, the United 
Stockgrowers of America. He said the group urged USDA to make 
the information public to prevent the market from over 
reacting. He went on to say in his testimony, that his group 
knew of the cow's link to Canada on December 24. The USDA did 
not make the announcement until December 27.
    Julie Quick, a spokesman for the Agriculture Department, 
said her agency reported the cow was from Canada as soon as it 
was confirmed, but she goes on to say that the USDA knew the 
cow had a Canadian ear tag on December 23.
    There is a discrepancy here between what she told the press 
in response to our hearing and your testimony here today. Can 
you help us understand the discrepancy?
    Secretary Veneman. Yes, Senator. Thank you for that 
question. I know there has been some concern on this, and let 
me just run down the time line, because I do think it is 
important because so many questions were asked. I asked a lot 
of questions about this myself, and this is the information 
that I have been given.
    When the results came back on December 23, we had with it a 
number of the cow but not the actual ear tag. The ear tag 
apparently was sent with the brucellosis sample and that was--
and the tag was then destroyed. When they went to look on farm 
on the 24th----
    Senator Conrad. Can I just stop you there. They destroyed 
the tag?
    Secretary Veneman. That is my understanding, because it 
went with the brucellosis sample.
    Senator Conrad. Gosh. Didn't somebody realize that is a 
pretty important piece of evidence as to where this cow might 
have come from?
    Secretary Veneman. The brucellosis test was negative. That 
is standard procedure when the ear tag apparently was with the 
brucellosis sample. Senator, I am just going to tell you the 
way this has worked. Now, as we go through an animal 
identification system, which many people have talked about 
today, we are going to be looking at all of these issues. I 
just want to tell you what happened in this case.
    On December 24, they went to the farm and they determined 
that the number on this tag was similar to the numbers on some 
other cow tags that were still on the farm, and on the back of 
these tags there was a reference to terminology that the 
Canadian Food Inspection Agency uses. Only the number, not the 
tag, was with the BSE sample.
    As a result they immediately notified the veterinarian, Ron 
DeHaven's counterpart in Canada--to see if they could trace 
this ear tag to any Canadian cow. This was because of the 
similarity of number of the tag. They confirmed this. He got 
called at midnight on the evening of 26th/27th, and we 
announced it on the 27th. We had confirmation on the 27th.
    I will tell you that there was some reluctance on the part 
of the Canadians to allow us to announce that, but for us, it 
was a preliminary finding. It had to be released to the public. 
We then said we would confirm with DNA tests. They would have 
preferred we waited for those DNA tests, but we knew those 
would take some time and we needed to let the public know of 
this information.
    I understand what you are saying in terms of people think 
they knew, but there was no confirmation by tracing this at all 
until the 27th, and we did announce it on the same day.
    Senator Conrad. Let me just say that I don't know exactly 
what happened here. It adds to the confusion when your 
spokesperson says that USDA knew the cow had a Canadian ear tag 
on December 23, but officials had to follow a paper trail to 
say with certainty that the cow came from that country. She 
went on to say there was no gap in reporting. She then follows 
that by saying, ``It took us 3 or 4 days of working with our 
Canadian colleagues to say, in fact, the cow did come from 
Canada.''
    The representative of R-CALF said at the hearing that the 
gap in reporting resulted in a worst case scenario for U.S. 
beef producers. He said the market value for a 1,200-pound 
steer dropped more than $190 by the end of the year. He is 
saying that the domestic cattle market received insufficient 
information and the international markets were equally 
uninformed.
    I do think that is an important thing. We need to establish 
when, in fact, it was known that this cow carried a Canadian 
tag and when it was reported. I take you at your testimony that 
as far as you know, from what you have been able to ascertain, 
you learned of it on the 27th and reported it on the 27th. I 
would ask you to go back, if you could, to your spokesperson, 
Julie Quick, and ask her why she said to the press that the 
USDA knew the cow had a Canadian tag on December 23. If you 
could do that, I would be interested to know why she said that.
    It is important because, obviously, the lag in information 
had a potential effect on markets and people took an enormous 
hit. When we knew it was a Canadian cow, we saw markets recover 
substantially, and that is the concern that people have at the 
Commodity Futures Trading Commission about some people knowing 
and other people not knowing. This is important for us to 
determine.
    Secretary Veneman. I will be happy to do that, Senator, and 
I would also be happy to make available our chief economist to 
talk about how the markets reacted. You know, there are limits 
on how much the market can go down each day. We saw the markets 
go down initially, but they have started to come back up. A lot 
of that was based upon the market not knowing what was going to 
happen with consumer confidence domestically, 90 percent of our 
market. We saw the markets continually go down for the first 
few days and then they began to level off. It was market 
reaction that was much along the lines of what our chief 
economist predicted, he thought might happen if we could 
maintain consumer confidence domestically.
    Senator Conrad. Let me just conclude by saying the one 
thing I heard loud and clear at home was a deep concern about 
this gap and that some people had knowledge and took advantage 
of it in the markets and there was such a dramatic swing that 
there was a potential for some people to lose a lot of money, 
and some people, of course, did. On the other hand, there was 
the potential for some people who might have inside information 
to make a lot of money. That is the story that we see in the 
Wall Street Journal this morning, the suggestion that somehow, 
some had insider knowledge as to where that cow came from and 
whether or not it was diseased.
    The Chairman. Thank you, Senator.
    Senator Talent.
    Senator Talent. Thank you, Mr. Chairman.
    I have two areas I want to get into briefly, Madam 
Secretary and Dr. Crawford. Let me preface it by explaining a 
comment I made in my brief opening statement when I said I 
thought what has happened shows that the system has worked, and 
I do think the food safety system has worked. Some may be 
wondering why, if we all believe that, we have all said that, 
well then why are we then inquiring into all these additional 
measures and why are you taking additional measures?
    I say the system worked because the animal was identified 
as needing testing. She was tested on a timely basis. The risky 
material in the animal was not put into the food system. The 
disease was identified on a timely basis. Other meat that was 
put into the system was recalled for confidence purposes. No 
other animal has been identified as having BSE and no human 
being has contracted the equivalent.
    The system worked, but I do think it is important that we 
make a distinction. You have two purposes. One is to protect 
food safety and another is to protect the markets, and to do 
the second, you have to create a level of confidence and take 
steps that may not strictly be necessary to do the first.
    This leads to my first question, because the steps that 
were taken with regard to downers, I don't want anybody to 
believe that by allowing downers to go into the food system in 
the past we have done something that we thought subjected the 
food system to risk. What we are trying to do here is to create 
greater confidence.
    The question I have for you is, if the downers cannot--the 
meat from the downers, the good meat, the muscle meat--cannot 
be put into the food system now, will the producers have the 
incentives to take the downers to market, to the auction barns 
or the processors in the first place, and if they don't, if 
they just destroy the animal and bury it on the ranch, are we 
going to be deprived of an opportunity to test an animal that 
may possibly have a disease we need to know about? Might the 
ban have a counterproductive aspect in terms of food safety if 
we are not careful or don't take some steps, and have you done 
any thinking along those lines. Then I have one other area I 
want to go into.
    Secretary Veneman. Absolutely, Senator, we have very much 
looked at that issue. As you indicate, a number of the animals 
that were part of our testing of animals for BSE were those 
downer animals that were presented for slaughter at slaughter 
plants. Those are certainly not the only high-risk animals, but 
the reason they are being tested is because they are high-risk. 
Once we found a BSE-positive cow in this country, we thought it 
was prudent to protect the public health to take the downers 
out of the system. We entered a different period when we found 
it in this country.
    We think that there are ample opportunities to get and test 
all of the test samples that we need, whether it is through 
rendering plants or through veterinarians with appropriate 
training and information on what to look for. The highest risk 
are those with some kind of central nervous system disorder and 
we want to make sure that veterinarians all across the country 
are looking for this.
    A couple of years ago, we were looking at the potentially 
devastating impacts to cattle of foot and mouth disease. Now, 
that disease doesn't have any human health problem, but we were 
helping veterinarians all over the country understand what to 
look for. Likewise, we are going to be making sure that people 
have in mind what kinds of symptoms to look for. We are going 
to be testing more frequently at rendering plants, at animal 
food plants, at the areas where these downers are not going 
into human food but going in for other purposes. We are also 
asking our international committee of experts to give us 
recommendations in that regard.
    As you indicate, we have done a lot of thinking on this 
issue. We are having a lot of discussions on this issue with 
everyone from State veterinarians to rendering plants to a 
whole variety of other interested parties.
    Senator Talent. I am certain of that. I wanted to hear from 
you that the issue is by no means closed in your mind or any of 
the ramifications of it, because I understood why you took the 
step. There are certain respects in which I am not satisfied 
with it, but all of us are continuing to look at it and will in 
the future.
    Let me--this is switching subjects, but the national 
identification system that the administration is working on 
with industry, it is an idea whose time has come. A lot of us 
are reaching that conclusion. Two aspects of it. Could you 
compare and contrast the USAIP system with the FAIR program 
that are being proposed here. What are the pluses and minuses 
in your mind of both.
    Also, the latest draft I have seen indicates that the USAIP 
plan would be in place sometime in 2006. Do you have any 
intention or desire to accelerate that schedule? Is it 
possible? Do you need any help from here, funding or anything 
like that?
    Secretary Veneman. Those are very good questions and I 
appreciate the opportunity to expand a little bit more on 
animal ID. It is important to recognize, Senator Allard talked 
about a technology. USAIP is based upon a certain technology. 
The FAIR program is part of USAIP, but there are people that 
are participating in that that have different technologies.
    One of the things that is becoming very clear as we look at 
animal ID systems and the potential for them is that we should 
be looking at ways not to preclude technologies but to set the 
standards for the information that we need to have an effective 
and efficient national animal ID system. That is the direction 
that we want to go in in terms of looking at how we structure a 
national animal ID system.
    I have asked our chief information officer, along with our 
chief economist, because there are so many economic issues 
involved in all of this, and our general counsel, because there 
are legal issues, as well, to oversee the implementation 
process.
    It is also important to recognize, I mentioned in my House 
hearing last week that we are getting more and more indications 
that other parts of the food chain are going to give 
incentives, for example, to have identification systems. For 
example, McDonald's announced in the fall, before BSE, that 
they would pay a premium for meat product that could be traced 
back to its origin of birth. We have actually talked with some 
producers who are getting that premium now because they have 
systems in place that allow them to give that kind of 
information to the purchaser of the product.
    What we don't want to do with any kind of animal ID system 
is overlay several layers of requirement onto our producers. We 
want to have an efficient system that allows the information to 
be put into a nationwide system and that will be one that 
allows technology to develop and become more efficient with 
time.
    Senator Talent. Well, I agree. I am going to look more into 
this both personally and in the subcommittee, and I am glad you 
are sensitive to the fact that so many of our producers are 
part-time producers. In Missouri, 42 percent of our producers 
run fewer than 50 cows. Also that technology is evolving. We 
don't want to through regulations or anything freeze this into 
one technology and then have to go through a whole regulatory 
process if better technology comes along.
    For so many reasons, this, the BSE, the terrorism, 
everything else, it is just more and more pointing me, anyway, 
in the direction of we are going to have to bite the bullet and 
have some kind of a system.
    I thank you and thank you, Dr. Crawford. Thank you, Mr. 
Chairman.
    The Chairman. Thank you, Senator.
    Senator Leahy.
    Senator Leahy. Thank you. Let me just follow-up a little 
bit on that, Madam Secretary. You and I discussed this 
yesterday. We talked about the program that the Holstein 
Association has developed in Brattleboro, Vermont, and USDA 
spent a lot of money with my encouragement to get them to 
develop that program. They have around a million bovines in 
over 7,000 farms, 42 States, and they know it works.
    I understand your concern about mandating a particular 
program and then having somebody find a better one. We all do 
that. I look at what happened. We had 27 of the 81 cows that 
came from Canada were able to be identified. Senator Specter 
and I have introduced legislation to require USDA to do a 
national animal identification program.
    If we go to tracking, as many of us have suggested may be 
the thing to do, is that system going to be mandatory or 
voluntary?
    Secretary Veneman. Well, we have indicated we want a 
verifiable system. We first need to get----
    Senator Leahy. Let us assume we get one.
    Secretary Veneman. Ultimately, the kind of information you 
will want to have fed in will probably be required after a 
period of time. This will allow pilot programs to demonstrate 
how it is going to work. We are going to need some time to 
phase it in to be required of all of the animals. I do think, 
over time, the only way it will work is if we have the 
requirement that everybody participate in it.
    Senator Leahy. I don't pretend to speak for the industry, 
but I would think that they would want a mandatory one, because 
the good producers, the people who have a huge amount invested 
in this who are being very careful, if there is such a tracking 
system out, they are going to use it anyway. They are going to 
use it because they want to sell, whether it is to McDonald's, 
the school lunch program, and so on and so forth. It doesn't 
help them if they are then undercut by some of the smaller 
producers who may want to save $3 or $4 an animal to not use 
the tracking system.
    I would think that as the major ones are going to do that 
so that they can point to it if something goes wrong, they are 
going to want everybody to be doing it, and I would think if we 
want to keep the kind of credibility that we have always kept 
of our food supply here in the United States, we would want it 
to be mandatory.
    Secretary Veneman. Well, the example you use of the 
effectiveness of so many of these systems, particularly in the 
dairy industry, whether it is the Holstein Association or a 
number of systems that are used in dairies throughout the 
country that can give you the productivity of any animal, gives 
the producer the ability to make good, solid management 
decisions about certain animals. You can have a whole range of 
information from those kinds of technologies that are now 
available and that are being developed.
    Senator Leahy. I absolutely agree with that, but I would 
hope that this pressure to bring those together sooner than 
later. We have one more of these incidences and then if we tell 
the world we really can't track where the animal came from, you 
can imagine what that is going to do to our export business, 
what it is going to do to our internal business.
    I would urge you to take whatever your target date is and 
look at it very carefully and see if you couldn't make it a lot 
quicker, because we have hundreds of millions, maybe billions 
of dollars at stake just for our industries.
    Secretary Veneman. I couldn't agree with you more, Senator, 
and that is why, with all of the work that has gone on in the 
last 18 months in looking toward an animal identification 
system for animal health purposes, I announced on the 30th of 
December that we were going to make this a priority.
    I would also point out that because the cow in question was 
in fact, a dairy cow, it did have an animal ID on it. This was 
one of the reasons we were able to track it so quickly. As we 
move forward with this process, we want to do it with as much 
speed as possible, but we also want to do it right.
    Senator Leahy. Of course, the other part of this, we have 
all expressed concern about the industry, which is a major part 
of our economy in this country. With the growing, actually 
unbelievably huge trade deficit this country now has, anything 
that we can export, we are very much in favor of.
    We also have the other overriding--overriding--question, 
and that is to protect our consumers themselves, the parents 
who buy beef products for their children or for themselves. 
These are important. I have long supported Senator Akaka's 
Downed Animal Act. I tried to get it in the 2002 Farm bill. The 
administration opposed it and it did not go in there. Now we 
have it back. You have done it by regulation and I applaud you 
for that.
    Does the Department have any plans to amend their Federal 
Register notice, I believe it was January 12, regarding the 
prohibition of downed animals in the human food chain?
    Secretary Veneman. Well, we published it as an interim 
final rule. It is open for public comment and so it would be 
inappropriate for me to prejudge what the outcome of that 
comment period may be. Obviously, by announcing it through an 
interim final rule, making it effective immediately, we thought 
it was the right thing to do.
    Senator Leahy. Do you have any plans to start testing 
downed animals on the farm? I understand there are about a 
million of those a year.
    Secretary Veneman. We, again, are working with--we do 
already work with veterinarians and we want to enhance the 
understanding of our veterinarians that deal with bovines, 
particularly to recognize the kinds of symptoms of this disease 
so that we will get the kind of high-risk cattle into the 
testing population that we need. We will work with people at 
rendering plants. We already have agreements with a number of 
these kinds of plants where we can get animals for testing.
    We are working with all of the various places where we may 
find the highest risk animals whether it is on the farm or in 
the rendering plant or other places.
    Senator Leahy. The reason I ask that, we have, what is it, 
190,000 or so downed animals delivered to slaughter, but about 
a million more on the farm. One of the things I get thrown 
back, to other countries, is what they do. Japan tests 100 
percent of the cattle, I am told, that enter the food chain. In 
the EU, they test about 25 percent of all slaughtered cattle, 
but they test 100 percent of those in certain high-risk 
categories. That is about a million cattle per month.
    Now, in the U.S., we test about half of 1 percent of the 
cattle slaughtered. EU is testing about 500 times more than we 
do. UPI submitted a FOIA request to the Department of 
Agriculture for information. UPI is a respected major news 
agency. They came out with this. They said during the first 7 
months of 2003, not a single cow was tested in Washington 
State--surprising, because the May 2003 outbreak of BSE was in 
Canada in the Alberta Province. The Alberta Province is about 
as close to Washington State as any part of Canada could be.
    We found out from them having made that Freedom of 
Information request that fewer than 100 of the 700 plants known 
to slaughter cattle were tested. Some of the biggest 
slaughterhouses weren't tested at all. Cows in the top four 
beef-producing States--that is 70 percent of the cattle 
slaughtered in the U.S. each year--are only 11 percent of the 
animals screened. In some cases, we found out that the USDA 
veterinarians were not in charge of selecting the animals for 
testing, rather the plant personnel were.
    Having seen that news story, does that concern you? Is USDA 
doing enough testing, is my basic question.
    Secretary Veneman. Senator, as I indicated in response to a 
previous question about the testing, we are targeting the 
highest-risk populations. We are targeting the populations 
based upon what the international guidelines would tell us. We 
know that our testing far exceeds the number of tests that 
would be required of a country in the same or similar 
circumstances as the United States. We are doubling our testing 
this year, from approximately 20,000 animals per year to about 
40,000, again, of the highest-risk animals.
    It is important to recognize that we are--and I would again 
reiterate that we are depending upon this international 
committee of experts to give us further guidance on our testing 
protocols and procedures.
    As you indicated, Japan tests every animal. Japan tests 
every animal not based on a scientific analysis, but rather 
when they had their first find of BSE, which as the trade 
minister reminded me was September 10, 2001, the day before 
September 11, they were hit with something that devastated 
certainly their food sector. Their consumption of beef went 
down substantially. Their consumer confidence plummeted, and 
they really took this action to regain consumer confidence 
rather than as a testing protocol for highest-risk animals.
    My understanding is that their testing primarily targets 
those animals that go into the food chain as opposed to those 
that may not and may be the highest-risk animals, where you 
might be most likely to find it. It is a different strategy 
with regard to testing. Ours would follow the international 
guidelines, which indicate that you ought to be testing high-
risk populations where you might be most likely to find the 
disease.
    We will be testing as part of the overall protocols of part 
of the 40,000. Some animals that are going to slaughter that 
are older animals, because we know that older animals do have a 
higher risk.
    We would be happy to continue to discuss all of these 
issues with regard to testing with you and I would be happy to 
make staff available to discuss this----
    Senator Leahy. We will. You are talking about testing 
40,000. We do slaughter 35 million. Let us follow-up some more 
on that. I will issue some questions for the record. As I said 
yesterday, I am pleased, when I talked to you, I am pleased 
with the steps you are taking. I want to tell you publicly 
that. I told you that privately. I want to tell you publicly.
    I also--my last point--I have just been notified that the 
Department is going to implement a regional equity provision in 
the 2002 Farm bill, something I wrote into that. That was to 
put those areas especially along the Eastern Seaboard and 
others that get very little out of the Farm bill but do have 
major conservation programs, that you are going to be 
implementing that. It means about $12 million to Vermont and 
other traditionally underserved States in conservation funds 
that protect our farmland and restore our waters. That is good 
news and I applaud you for it.
    As you have heard from what the Chairman and all the other 
members have said, we share your concern on this matter. We 
want to ensure that our consumers, our children, our other 
consumers are eating products that are safe. We have a well-
deserved reputation for safety in the United States. We want to 
keep that up. We want to be able to tell our trading partners 
that when they buy from us, it is also safe.
    Mr. Chairman, I applaud you again for having this hearing. 
It is one of the most important ones we will have at the 
beginning of our session.
    The Chairman. Thank you, Senator Leahy, and for your 
participation in the hearing.
    Senator Grassley.
    Senator Grassley. Thank you very much, Mr. Chairman.
    I want to start with Secretary Veneman. My Midwestern 
common sense tells me that there is an inconsistency that I 
want to point out and ask you about, because we all know that 
there is blood in meat. We also know that milk contains blood 
cells and other blood proteins. Now, the U.S. Department of 
Agriculture readily, and rightly so, assures us about the 
safety of both meat as well as milk. Then on the other hand, 
the Food and Drug Administration less than 14 hours ago limited 
blood for ruminant feed. Is the FDA's position inconsistent 
with your position?
    Secretary Veneman. Senator, that it is important to point 
out, as you did, that there is no scientific evidence that 
would indicate that there is any presence of the prion or that 
there is any problem with the muscle cuts of meat or with any 
milk or milk products. There is no scientific evidence that I 
am aware of or that I have been informed of by any of the many 
people I have talked to who have scientific knowledge that 
there is any risk with regard to these.
    I don't want to speak for the science behind the FDA 
actions, but the fact of the matter is, that as part of the 
ruminant-to-ruminant ban, this was one of the gaps in the 
overall ruminant-to-ruminant ban that they have acted to 
correct.
    Senator Grassley. OK. Well, blood is blood, so I would ask 
Dr. Crawford. It is my understanding that the scientific 
community supports the safety of blood and blood proteins. The 
World Health Organization, the Food and Agriculture 
Organization of the United Nations, and the World Organization 
for Animal Health categorizes blood in a Category 4, which is 
tissue with no detectable infectivity.
    While hypotheticals were raised to determine potential 
risk, the Harvard report states, and I quote, ``No detectable 
infectivity has been found in blood or blood components of 
cattle infected with BSE,'' end of quote. It is my 
understanding that the Harvard report concluded that feeding 
bovine blood to cattle will not spread BSE. Other groups have 
implied that the blood proteins could have the potential to be 
a risk.
    As you know, blood has never been found to carry BSE, so 
upon what scientific basis has FDA come to the decision that 
you announced yesterday?
    Dr. Crawford. The concern about blood has been changing in 
the last few weeks. There is a case of variant Creutzfeldt-
Jacob disease in England, which is, as you know, the human form 
of mad cow disease, or BSE. That person did receive a 
transfusion from a BSE-infected patient, that is a VCJD-
infected patient, and then over a period of time, in this case 
6 years, the individual that received the blood did come down 
with the disease. They are checking very hard to be sure that 
that was the cause of the disease.
    As you also know, the Food and Drug Administration and many 
other governments have limited blood donations from those 
individuals that lived in the United Kingdom during the time of 
the major outbreak, before they got it under control. We also 
have imposed restrictions on donations of blood from U.S. 
servicemen because those that served south of the Alps did 
receive meat from the United Kingdom during the time of the 
apogee of the outbreak.
    We review the blood donation restrictions every 6 months 
with our Transmissible Spongiform Encephalopathy Advisory 
Committee and we adjust these on a regular basis. I must say 
that the new case in England has caused shockwaves around the 
globe, and that is new information.
    In terms----
    Senator Grassley. How does that comport with the decision 
made yesterday not to use animal blood in animal feed?
    Dr. Crawford. Because it means that the prions may be found 
in the blood. As a matter of fact----
    Senator Grassley. What about the blood in the meat I eat?
    Dr. Crawford. Well, the blood in the meat you eat is 
minimal compared to something like a blood transfusion or being 
fed a diet of blood and it is not thought to be a risk factor. 
In fact, there is no risk for the so-called purge that is found 
in meat. What we are concerned about are blood transfusions 
that go right into the bloodstream, into the system. We are 
also concerned about the consumption of blood in dairy calf 
replacement rations.
    Senator Grassley. Would that blood that is fed in 
replacement rations, as an example, be a higher percentage of 
blood in that animal's diet compared to my diet of the meat I 
eat?
    Dr. Crawford. Yes, it would be, much higher.
    Senator Grassley. I would like to ask Secretary Veneman 
about the downer issue. The ban troubles me, and I want to take 
my hat off as a member of the Agriculture Committee and speak 
to you as I do often about my concerns about international 
trade, because my Finance Committee deals with this. In 
international trade, we have always argued that standards 
affecting trade must be based on sound science. This means well 
recognized standards accepted by the scientific community.
    My question is, what scientific standards are you relying 
on when banning all downers as opposed to being discriminating 
in some, like broke a leg as opposed to those that might be 
sick?
    Secretary Veneman. Senator, it is important--first of all, 
I would like to also recognize your work on trade. You do a 
terrific job as Chairman of the Finance Committee, and as you 
know, we are very dependent upon trade as an agricultural 
industry in this country and we appreciate your leadership and 
your knowledge of both agriculture and trade.
    In the situation with regard to the downers, we do know 
that the downers are among the highest-risk animals. Of the 
cattle that have been found to be infected in other countries, 
including in Europe, when the disease did become established, 
it was much more prevalent in downer animals than other 
animals.
    Second, we have had three finds of BSE in North America the 
two in 2003 and one back in the early 1990's, which was a 
single cow that was imported from, I believe, the U.K. In all 
three of those cases, the animals were downer animals. One just 
simply had the symptoms of a broken leg.
    When you make decisions about regulations, they are based 
upon an evaluation of the science and a determination of the 
risk. Given the fact that we found a case of BSE in this 
country, we determined that based upon the science and the risk 
that these animals posed--we should take them out of the food 
chain itself.
    That is why we made the decision. It is clearly a decision 
that can be defended in an international setting. Certainly it 
doesn't violate national treatment and I believe that any panel 
would support our decision in terms of the science as well as 
the risk.
    Senator Grassley. In that 1990 case, the broken leg was not 
the only symptom, though, was it?
    Secretary Veneman. I am not intimately familiar. That was 
the symptom that I was told, in addition to the fact that the 
animal--the animal was tested also because it was identified as 
having come from the U.K., as I understand it. It was presented 
as a non-ambulatory broken leg cow.
    Senator Grassley. In regard to whether or not sound science 
was used, or can be used in this particular case, the United 
States has been so far out in front on making sure, at least 
since 1993 when the last WTO dealt with the sanitary and 
phytosanitary rules, was to make sure that we did have sound 
science.
    The extent to which this might be questionable in this 
case, it puts us at a disadvantage in the arguments we have 
been making, particularly with Europe, on the standards that 
could ban genetically modified organisms or the beef hormone 
issue that we won the WTO case on, and also the extent to which 
we might be playing to the European goal in this area of their 
use of the precautionary standard, which to me can ignore sound 
science and might be a way around the sanitary and 
phytosanitary rules, kind of a loose science. We have to be 
careful that we don't get other nations encouraged to go that 
same direction after we have taken such a strong stand against 
it.
    Mr. Chairman, I believe that is the end of my questioning.
    The Chairman. Thank you, Senator Grassley, for your 
contribution to the hearing.
    Madam Secretary, Dr. Crawford, thank you so much for being 
here and testifying before our committee today. I congratulate 
you again on the fine work you are doing. We commend you for 
your efforts and wish you the best.
    Our final witness is Dr. Alfonso Torres, who is Associate 
Dean of Veterinary Public Policy and Executive Director of the 
New York State Animal Health Diagnostic Laboratory. He is a 
professor, as well, at the College of Veterinary Medicine of 
Cornell University. He served as Director of the Plum Island 
Animal Disease Center before working at the Department of 
Agriculture as the Chief Veterinary Officer.
    It was at the request of Senator Harkin that we invited an 
outside witness, someone who is not currently employed by the 
U.S. Government, to give us the benefit of observations and 
testimony concerning BSE and our government's efforts to deal 
with the threat, if any, to our food supply and the effect that 
it may have had on our domestic beef cattle industry. Dr. 
Torres comes to us highly recommended because of his previous 
experiences and his knowledge in this area.
    We have a copy of the statement which you have submitted to 
the committee and we will make that a part of the record in 
full. I would invite you to make whatever summary comments you 
think would be helpful to our further understanding of your 
assessment of the actions that our government has taken and the 
effectiveness of those actions. You may proceed.

       STATEMENT OF ALFONSO TORRES, D.V.M., M.S., Ph.D., 
  ASSOCIATE DEAN FOR VETERINARY PUBLIC POLICY, AND EXECUTIVE 
 DIRECTOR, NEW YORK STATE ANIMAL HEALTH DIAGNOSTIC LABORATORY, 
                     COLLEGE OF VETERINARY 
         MEDICINE, CORNELL UNIVERSITY, ITHACA, NEW YORK

    Dr. Torres. Thank you, Mr. Chairman, for inviting me, and 
Senator Harkin and members of the committee.
    While we are now experiencing the impact of BSE in our 
country, BSE is not a new disease for us in the veterinary 
community. We have been following this disease since it was 
first recognized as a brand new one in the United Kingdom in 
1986, and all the proactive regulations from the USDA and the 
FDA dating back to 1988 have worked well in protecting us 
against an outbreak of BSE.
    As Secretary Veneman indicated, we have followed BSE 
response plans that had been in place in 1990. Thanks to that, 
the Federal agency has been remarkably effective in dealing 
with the current situation, as has been pointed out before 
here. Now that we have BSE in our soil, we need to modify our 
plans. I know that both USDA and FDA have indicated before they 
are doing so.
    Given the nature of BSE, there are three areas that I would 
like to provide some comments. The first one is in the area of 
trade of ruminants and ruminant products. Recognizing that we 
have been very proactive in implementing regulatory safeguards 
to prevent introduction of BSE-affected animals or products 
containing the BSE agent, all these regulations have so far 
followed the scientific knowledge about this disease, which is 
evolving. Consequently, our policy of how to respond to BSE-
affected countries needs to be also adjusted accordingly.
    In the past, we had a set policy of implementing some trade 
embargoes on countries that had BSE regardless of how many 
animals or regardless of the risk factor that they had, and 
that needs to be modified. Actually, the Federal agencies, 
Secretary Veneman pointed out, are beginning to do in 
cooperation with trading partners and in cooperation with the 
OIE.
    It is important to point out that our response to Canada 
must be different than to respond to many countries in Europe. 
I also want to point out that while we only have two animals, 
Canadian-born animals diagnosed with BSE, we still have several 
hundred cases of BSE every year in EU member countries. When I 
hear comments that France is doing more testing of that than we 
do, it is because they do have a lot of cases of BSE. We don't.
    Our nation will not be able to overcome the restrictions 
that other countries have placed on our export of animals and 
animal products until we continue to adjust our import trade 
restriction to other countries in an equivalent and 
proportional way under similar situations. I believe that the 
trade restrictions imposed by many countries, as pointed out, 
are not science-based, and that includes boxed beef, embryos, 
and semen. Those should be lifted. The restrictions on live 
animals are going to take a little bit longer term to be 
lifted, until we are in a position to lift similarly 
restrictions in other countries.
    The second point that I want to make some comments, Mr. 
Chairman, is in the targeted domestic surveillance. As pointed 
out by previous testimony here, USDA has had an effective 
surveillance system to provide for an early detection of BSE in 
our country. The system has worked well, as demonstrated by the 
detection of the first BSE-affected cow in the State of 
Washington.
    The task now is to maintain and expand an effective 
surveillance program in face of the recently announced USDA ban 
on the slaughter of non-ambulatory animals for human food. This 
is the segment of the cattle population that has been our best 
target for sampling and testing. A new system of BSE 
surveillance that statistically represents the entire cattle 
population of the U.S. and that meets international guidelines 
and recommendations will be a challenge. The system for 
transportation to and sampling at slaughter establishments that 
process only downer animals are not well developed at the 
present time.
    There is a need, in my estimation, to find a safe and 
economically viable means to humanely slaughter non-ambulatory 
animals and to provide for safe disposal and sampling of on-
farm dead animals. Such actions will avoid potential welfare 
issues of injured animals at the farm and will restore a well-
established source of samples for a credible BSE surveillance 
at the national level that is based on sound epidemiologic 
science.
    Animal ID is an integral component of surveillance, and 
while I recognize and appreciate the many efforts that USDA and 
the animal industries are doing in developing and implementing 
a national ID system, the weakness of such a system is that it 
is voluntary at this time. I am encouraged by the statements 
from Secretary Veneman and others at USDA on the acceleration 
of the national animal ID plans. However, I respectfully 
suggest that Congress, in cooperation with the USDA and the 
industry, needs to make this national animal ID system a 
mandatory program.
    My final comment, Mr. Chairman, is in regard to ruminant 
feed bans. I applaud the efforts from the FDA in tightening 
enforcement of the regulations banning the feeding of ruminant 
proteins to cattle and the additional safeguard measures just 
announced. I understand the reasons for those at this point in 
time.
    Still, the very best way to prevent the amplification and 
the spread of BSE from affected cattle to other animals is by 
preventing the use of potentially BSE-contaminated feeds for 
all susceptible animals. Given the fact that BSE prion agent is 
primarily present in relatively few tissues of the infected 
animal, the so-called specified risk materials, or SRM, I urge 
the USDA and the FDA to extend the ban on the use of SRMs from 
all downers and from cattle older than 30 months of age, not 
only for use in the human food chain, but also for use in the 
animal feed chain. Such action will further enhance the safety 
of protein supplements used in ruminant and feline diets.
    This recommendation has been proposed by the World Health 
Organization as part of scientific measures to prevent the 
spread of BSE in the world. This recommendation was also made 
to Canada last June by the international review panel that 
evaluated the actions after the case in the Province of Alberta 
last year.
    Mr. Chairman, I want to be on record to congratulate the 
USDA and the FDA for their effective actions following the BSE 
finding and announcement December 23 of last year. These 
actions have maintained consumer confidence in the safety of 
our beef products, and while trade embargoes were to be 
expected in a situation like this, I hope that with continued 
implementation of actions as suggested today by members of the 
panels we will continue to enhance the defense of our nation 
against BSE and sustain domestic and international confidence 
in our animal industries and the safety of our food and feed 
supply.
    Thank you again, Mr. Chairman, and to the committee for 
inviting me to testify, and I would be glad to answer any 
questions that you may have.
    The Chairman. Thank you very much, Dr. Torres. We 
appreciate your attendance at our hearing and your help in our 
understanding of the issues involved in this BSE situation.
    [The prepared statement of Dr. Torres can be found in the 
appendix on page 148.]
    The Chairman. In your statement, you suggest that even 
though we have learned a lot since the outbreak of BSE in 
Europe, our research has some scientific gaps in it. With your 
experience with BSE and other diseases, can you give us your 
thoughts about how we could better coordinate research efforts 
both domestically and internationally to close those gaps?
    Dr. Torres. Yes, Mr. Chairman. Certainly this group of 
diseases have been difficult ones to do research on because of 
a number of things. One is a unique type of agent for which the 
technologies that we use for infectious diseases do not work. 
Second is a very long incubation period. Even if you were to 
use mice, you need to inject these mice and then wait a year 
and a half to 2 years to have the results. If you were to use 
the host species, cattle, you have to wait 4 to 7 years. Then 
you have to do those experiments under proper, biocontainment, 
isolation. It becomes very cumbersome and very difficult and 
expensive to do it.
    There is one issue that I have to caution all of you about 
and that is the extrapolation of scientific information from 
other TSEs into BSE. Let me use an example. Variant CJD is the 
BSE infection in humans, but the findings of vCJD in humans 
could not be directly extrapolated to humans. Yes, there was a 
case, as pointed out by Dr. Crawford, of a transfusion that led 
to a vCJD case in a human, and that is because humans with vCJD 
have the prions in the bone marrow, which is the tissue or the 
organ of the body that forms blood.
    That has not been determined in cattle. We have never seen 
prions be accumulated in the bone marrow of cattle. That is why 
the OIE, the WHO, and other agencies still argue that the blood 
of cattle is safe for consumption or for use, because there is 
no evidence of that in cattle. There is evidence of that in 
humans.
    What I am trying to say is that there are a lot of gaps in 
research in these diseases as they apply to animals. A lot of 
the research, funding for research on these diseases has been 
directed to the human aspects of these diseases. There is very 
little money going to understand the effect of these diseases 
on the host animals themselves. We know still very little how 
chronic wasting disease is transmitted. We still have some gaps 
in the understanding of BSE in animals, especially what could 
happen with BSE infection in sheep, for example.
    Mr. Chairman and Senator Harkin, I know that both of you 
are interested in this area, but when it comes down to the 
funding available for universities like ourselves at Cornell 
University to conduct animal health research, it is a very, 
very small portion of the pool of the money that is available 
to do biomedical research for human purposes to NIH, and I will 
argue that the biomedical sciences are as expensive whether you 
are working for disease in animals or in humans and I would 
urge the Congress to revisit the issue of funding for 
agricultural-based animal health and public health research.
    I hope that I have answered some of your question.
    The Chairman. Your mentioning the World Animal Health 
Organization is helpful to us. Many people have heard of the 
World Health Organization. It is commonly discussed in the 
decisions that are made by the World Health Organization.
    You suggested in your statement that specified risk 
materials from cattle over 30 months of age should not enter 
the human food chain. You recommend that they should not enter 
the human food chain or animal feed chain and that this 
recommendation has been proposed by the World Health 
Organization. I wonder if that is the same position that the 
World Animal Health Organization has, or have they taken a 
position on that issue? You were a delegate to that World 
Animal Health Organization.
    Dr. Torres. Yes, Mr. Chairman. They are coordinating their 
recommendations to be uniform. One of the reasons why--first of 
all, let us keep in mind that the SRM is where the major 
infectivity exists. There could be 5,000 infective doses in the 
brain of an affected animal, 2,000 infected doses for cattle in 
the spinal cord of affected cattle. If you remove just brain 
and spinal cord, you are taking more than 80 percent of the 
infectivity that is in the system.
    There are always leaks in the system, even though you may 
have a ruminant feed ban in place, there are leaks in the 
system as has been pointed out here before. The chicken litter 
feed is one of the sort of leaks of the system that have been 
plugged now. There are also leaks in the system of spent pet 
food being fed to cattle.
    That is one of the recommendations, elimination of all SRMs 
from even the feed, is to prevent these infection materials to 
be available through the feed channels that perhaps 
accidentally could be leaked into the ruminant feed chain. That 
is also why FDA wants to have separate lines of production of 
these products, to prevent this cost-contamination. The 
additional removing of all SRMs even from the feed chain is 
going to help us to remove that risk from ruminants.
    Also, we have to keep in mind that although there have been 
very few cases, about 100 cases of domestic cats have suffered 
infection of BSE. These cases have been mostly in the U.K., a 
few cases in other parts of Europe. The elimination of SRMs 
from the feed chain is an added safeguard in preventing the 
spread of BSE in a given country.
    The Chairman. When you mention the acronym SRMs, you are 
referring to specified----
    Dr. Torres. Specified risk materials.
    The Chairman. Specified risk materials?
    Dr. Torres. That is correct, yes.
    The Chairman. With respect to the national animal 
identification system, do you see this as an area where the 
Federal Government should mandate the system, including any 
type of technology that should be employed, or do you see the 
potential for USDA to be able to use existing ID systems 
developed by commercial entities or State governments or breed 
associations?
    Dr. Torres. Mr. Chairman, as I indicated in my testimony, 
the national animal ID system needs to be, in my estimation, 
mandatory. The mandatory part will be the standardization of 
systems, of nomenclature and maybe computer data bases that can 
gather information but allow the marketplace to establish what 
is placed on the animal. This could be an implant, it could be 
an ear tag, it could be different methodologies.
    What needs to be mandatory and standardized is the 
nomenclature system and the system to collect that information 
and being made available when needed. Unless we have all the 
systems that are compatible in the data bases, then we are not 
going to accomplish what we need.
    It needs to be also ISO certifiable. That means that 
internationally, it is going to be accepted by trading 
partners. Some of these animals that we are going to ear tag or 
ID tag are going to be exported. Our system needs to be also 
recognized internationally. There are many, many systems that 
many companies are promoting now. Many of them are not ISO 
certifiable, and that needs to be part of the standards that 
are mandatory.
    The Chairman. Thank you. Your presence here and your 
testimony has been very helpful and we appreciate your 
assistance to our committee.
    Senator Harkin.
    Senator Harkin. Thank you, Mr. Chairman. I just wanted to 
get back here. I had to take a small break, but I wanted to be 
here for Dr. Torres' testimony, basically just to cover a 
couple of things with you, Dr. Torres.
    I am not certain, I listened to the answer that Dr. 
Crawford gave to Senator Conrad, and I believe there may have 
been a misinterpretation or misperception from that answer. Dr. 
Crawford said that BSE does not manifest itself--that is the 
word he used--in poultry, for example. Chickens don't get BSE. 
Therefore, the implication was that if you feed ground up 
chickens, bones and everything else, to ruminants, that is no 
problem.
    Is it not a fact, Dr. Torres, that these prions are highly 
indestructible molecules that can go--let us say you can take a 
ruminant, you can grind it up, use that as feed and feed it to 
poultry. If that animal is infected with those prions, that 
ruminant, those prions then will be picked up by the chicken. 
The chicken may never manifest BSE, but the prions could be 
there in the chicken's system. If that chicken is then 
slaughtered and ground up and fed back to another ruminant 
animal, those prions may have completed that cycle, is that not 
true?
    Dr. Torres. Senator Harkin, there is a need to have a 
certain amount of material in order to infect an animal, a 
bovine. Chickens----
    Senator Harkin. Do we know how much that is?
    Dr. Torres. It has been estimated to be probably a tenth of 
a gram or maybe less.
    Senator Harkin. A tenth of a gram?
    Dr. Torres. Or less.
    Senator Harkin. That is very small.
    Dr. Torres. It is a very small amount, yes.
    Senator Harkin. Very small.
    Dr. Torres. A very small amount.
    Senator Harkin. Thank you. I didn't want to leave the 
impression there that a ruminant had to eat a thousand chickens 
before it would ever get prions. A tenth of a gram.
    Dr. Torres. Now, if chickens, following your example, are 
fed materials contaminated with that prion--let us assume that 
that is the case.
    Senator Harkin. Yes.
    Dr. Torres. The materials are going to be passed through 
the gastrointestinal tract of the chicken without being 
destroyed because of the nature of those proteins. They are not 
going to be taken into the body of the chicken, nor do they 
have an ability to replicate or multiply or accumulate in the 
chicken. The only part that could be in the chicken, if it is 
ground up, following your example, to be used as a protein 
supplement for cattle, it would be whatever minute amounts are 
still present in the lining of the intestinal tract of that 
chicken fed that material.
    Senator Harkin. Let me just clear up one thing, Dr. Torres. 
You are saying that if a chicken eats ground up ruminant 
material that contains these prions, those prions cannot go 
beyond the gastrointestinal tract? They cannot be absorbed in 
the bloodstream?
    Dr. Torres. That is correct. That is what is estimated to 
be the case, yes.
    Senator Harkin. Estimated, or--I really want to pin you 
down on this, because I have heard other information that those 
prions may be deposited in other parts of the chicken's body, 
where they won't do any harm, but they are still there. Now, if 
I am wrong, I would like to know that.
    Dr. Torres. I don't have a recollection now of a specific 
scientific paper that deals with quantifying how much of this 
material may be absorbed in chickens or not. I am basing my 
answer on general principles that we know about what is 
absorbed from the intestinal tract of animals or not.
    Senator Harkin. OK.
    Dr. Torres. In my estimation, the amount of prion, the 
large molecule that the chicken may absorb into the 
bloodstream, will be either nil or very minute amounts.
    Senator Harkin. I need to get more information on that 
because it seems there is a fair amount unknown about whether 
those prions could deposit themselves in various parts of the 
chicken's body. The chicken will never manifest any illness, 
but the prions would be there. I need to get some more 
information on that because I thought these was some 
uncertainty regarding that, and I will have to check that out 
some more from scientists.
    The other point, if there is that possibility, and I don't 
know if there is, but it seems to me that the one way to stop 
all this is just to ban the feeding of any ruminant parts to 
any animal. Wouldn't that just stop it right there?
    Dr. Torres. Sure, or the elimination of all SRMs to get 
into the feed chain, what I have suggested, as well.
    Senator Harkin. Well, but that is the way it gets in the 
feed chain, isn't it?
    Dr. Torres. No. The SRMs are still allowed to go into the 
feed chain. Now, that feed cannot be fed to ruminants, but can 
be fed to other animals, chickens, pigs, and so forth.
    Senator Harkin. Right.
    Dr. Torres. If you were to eliminate all SRMs from the feed 
chain----
    Senator Harkin. Yes.
    Dr. Torres [continuing]. Then you remove the majority of 
the potentially infectious agent from the feed chain, period, 
whether it is fed to chickens----
    Senator Harkin. The majority or all of it?
    Dr. Torres. Well, there is still some residue, but if you 
eliminate the SRMs, you are eliminating 90 percent plus of all 
infectious, or all tissue that potentially could contain the 
prion agent of a ruminant.
    Senator Harkin. Those prions in a bovine animal, in a 
steer, cow, whatever, those prions actually could also attach 
themselves to nearby tissues of the spinal column, for example, 
along the ribs.
    Dr. Torres. Well, that is--Mr. Harkin, there are some 
ganglions, some nearby ganglions. As the nerves exit the spinal 
cord----
    Senator Harkin. Right.
    Dr. Torres [continuing]. There is a ganglion there. That is 
called a dorsal ganglia. They are part of the SRM definition. 
If you remove all SRMs, you are removing that nerve tissue that 
is there as the nerves exit the spinal cord through the muscle 
to the ribs.
    Senator Harkin. These prions could not attach themselves to 
anything beyond that that we know of?
    Dr. Torres. These prions are associated with nerve cells. 
Most of our nerves in the body are not the cells. The cells are 
in the spinal cord, the brain, or the ganglia. What we have in 
our tissues is just the extensions of those cells but not the 
nucleus of the cell and that is where the prions are. The nerve 
tissue, pure nerve tissue that may be in a muscle mass, does 
not contain the prions.
    Senator Harkin. I see. Is it my understanding that some 
countries, Japan, France, I don't know how many, have actually 
banned all feeding of ruminant feed to anything?
    Dr. Torres. That is correct, and part of that is because 
the systems, as I understand, of rendering and processing, they 
have plants that process and render ruminants or non-ruminant 
species in the same plant. The possibility of cross-
contamination for them is quite high. The FDA has implemented 
rules that separate the production lines of ruminant feed from 
other lines that produce feed for other species. It is a little 
bit different systems in how the rendering unit is organized, 
as I understand, why some countries have banned all ruminant 
feeding to other animals versus ourselves doing the ruminant-
to-ruminant feed ban.
    Senator Harkin. My last question would be this. I was told 
the other day that France inspects more animals in 1 month than 
we do in a decade. I saw your testimony as I was walking out of 
my office that you said, of course, they have BSE. They have 
more BSE. That is why they do more testing. I understand that.
    Is there not a quick--test right now that other countries 
have adopted, which before any slaughtered animal goes to 
market, there is a test done and then the animal is released to 
go to market based upon that test, and that test only takes a 
couple days, maybe, two or 3 days, less than that, maybe. I 
don't know. What can you tell us about that as a possibility of 
perhaps ensuring the public that the meat they eat contains 
absolutely none of these prions?
    Dr. Torres. Senator Harkin, there are a variety of 
diagnostic tests for prions, BSE or chronic wasting disease or 
the like. The majority of the tests are very good for 
surveillance but they are not intended, many of them, to be for 
food safety purposes, and there is a difference there. These 
tests, only they take the positive animal when the animal is 
just a few months or a few weeks before the animal becomes 
clinical. We cannot detect animals that may have the prions in 
their tissues too much before the animal becomes clinical.
    The feeling is that many of these tests are very good for 
surveillance, targeting the high-risk population like we have 
been doing here in the past, the downer animals and the like. 
Testing animals older than 30 months of age makes sense.
    Testing animals below that age, 24 to 30--I know that you 
asked that question because there are differences in 
establishing when there is sufficient prion accumulated in an 
animal for that animal to be infectious to others. Experiments 
were done using mice, but now they are getting the results 
after 4 to 7 years of the same experiments doing calves and the 
data looks a little different. There is a range between 24 to 
30 months. Some countries have elected to take 24 months, but 
most countries have elected to take 30 months. Testing 
eventually 30 months of all the animals, the test becomes more 
valid for food safety purposes than testing animals lower than 
that age.
    Senator Harkin. Lower than that age, those prions could 
still be there. They may not manifest themselves in any illness 
or anything like that, but they would still be there.
    Dr. Torres. It appears, Senator, that the accumulation of 
these prions in the SRM tissues of the animal, affected animal, 
increases exponentially with time. Prior to that age, even if 
the animal were to be incubating the disease, the scientific 
community estimated that those animals do not pose a risk for 
human or animal safety because there is not enough material 
there to infect other animals.
    Senator Harkin. How about to infect humans?
    Dr. Torres. Less likely. The human infective dose, although 
it is not established because nobody has done the direct 
experiment, but is estimated to be maybe a thousand or more 
fold greater than the dose used for infecting cattle. Every 
time that you jump species, the infective dose increases 
dramatically. The amount to infect a human is many, many folds, 
a thousandfold or more, greater than the amount that is used or 
needed to infect cattle.
    Senator Harkin. Yes, but we really don't know the answer to 
that and that is why more research is needed on this.
    Is there any difference between poultry and swine? When 
swine eat ruminant parts and stuff, could these prions then be 
ingested and find their way to other parts of the swine rather 
than.
    Dr. Torres. I am not aware, Senator Harkin, of swine being, 
first, susceptible to these diseases, or----
    Senator Harkin. I know it is not susceptible to disease. I 
am just talking about eating ruminant parts, having those 
prions attach themselves or get in the blood stream and settle 
in various other parts of the swine's body that may either be 
consumed by humans or may be consumed by other ruminant animals 
as feed later on.
    Dr. Torres. Yes. I am not aware of the swine to be 
accumulating these prions in their tissues----
    Senator Harkin. OK.
    Dr. Torres [continuing]. Enough to pose any human or animal 
health hazard.
    Senator Harkin. OK. You are not aware that that is 
possible. Thank you. That was very informative. I appreciate it 
very much, Dr. Torres. Thank you.
    The Chairman. Thank you, Senator Harkin.
    Thank you, Dr. Torres, for your participation in our 
hearing. We have had a very successful hearing today. We had 
the full participation of the members of the committee and we 
have been enlightened and better advised because of the fact 
that we have had our witnesses before us today.
    Congratulations again to the Department of Agriculture and 
the Food and Drug Administration for the expeditious effort 
that they have put forward in containing and explaining and 
helping to reassure not only the consuming public here in the 
U.S. about the BSE and what the threats are and the lack of 
threats to our food supply, and also to re-establish and 
restore markets for our beef cattle industry and our beef 
products around the world. This has been a very constructive 
hearing.
    The hearing is now adjourned.
    [Whereupon, at 12:54 p.m., the committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                            Januray 27, 2004



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T1649.001

[GRAPHIC] [TIFF OMITTED] T1649.002

[GRAPHIC] [TIFF OMITTED] T1649.003

[GRAPHIC] [TIFF OMITTED] T1649.004

[GRAPHIC] [TIFF OMITTED] T1649.005

[GRAPHIC] [TIFF OMITTED] T1649.006

[GRAPHIC] [TIFF OMITTED] T1649.007

[GRAPHIC] [TIFF OMITTED] T1649.008

[GRAPHIC] [TIFF OMITTED] T1649.009

[GRAPHIC] [TIFF OMITTED] T1649.010

[GRAPHIC] [TIFF OMITTED] T1649.011

[GRAPHIC] [TIFF OMITTED] T1649.012

[GRAPHIC] [TIFF OMITTED] T1649.013

[GRAPHIC] [TIFF OMITTED] T1649.014

[GRAPHIC] [TIFF OMITTED] T1649.015

[GRAPHIC] [TIFF OMITTED] T1649.016

[GRAPHIC] [TIFF OMITTED] T1649.017

[GRAPHIC] [TIFF OMITTED] T1649.018

[GRAPHIC] [TIFF OMITTED] T1649.019

[GRAPHIC] [TIFF OMITTED] T1649.020

[GRAPHIC] [TIFF OMITTED] T1649.021

[GRAPHIC] [TIFF OMITTED] T1649.022

[GRAPHIC] [TIFF OMITTED] T1649.023

[GRAPHIC] [TIFF OMITTED] T1649.024

[GRAPHIC] [TIFF OMITTED] T1649.025

[GRAPHIC] [TIFF OMITTED] T1649.026

[GRAPHIC] [TIFF OMITTED] T1649.027

[GRAPHIC] [TIFF OMITTED] T1649.028

[GRAPHIC] [TIFF OMITTED] T1649.029

[GRAPHIC] [TIFF OMITTED] T1649.030

[GRAPHIC] [TIFF OMITTED] T1649.031

[GRAPHIC] [TIFF OMITTED] T1649.032

[GRAPHIC] [TIFF OMITTED] T1649.033

[GRAPHIC] [TIFF OMITTED] T1649.034

[GRAPHIC] [TIFF OMITTED] T1649.035

[GRAPHIC] [TIFF OMITTED] T1649.036

[GRAPHIC] [TIFF OMITTED] T1649.037

[GRAPHIC] [TIFF OMITTED] T1649.038

[GRAPHIC] [TIFF OMITTED] T1649.039

[GRAPHIC] [TIFF OMITTED] T1649.040

[GRAPHIC] [TIFF OMITTED] T1649.041

[GRAPHIC] [TIFF OMITTED] T1649.042

[GRAPHIC] [TIFF OMITTED] T1649.043

[GRAPHIC] [TIFF OMITTED] T1649.044

[GRAPHIC] [TIFF OMITTED] T1649.045

[GRAPHIC] [TIFF OMITTED] T1649.046

[GRAPHIC] [TIFF OMITTED] T1649.047

[GRAPHIC] [TIFF OMITTED] T1649.048

[GRAPHIC] [TIFF OMITTED] T1649.049

[GRAPHIC] [TIFF OMITTED] T1649.050

[GRAPHIC] [TIFF OMITTED] T1649.051

[GRAPHIC] [TIFF OMITTED] T1649.052

[GRAPHIC] [TIFF OMITTED] T1649.053

[GRAPHIC] [TIFF OMITTED] T1649.054

[GRAPHIC] [TIFF OMITTED] T1649.055

[GRAPHIC] [TIFF OMITTED] T1649.056

[GRAPHIC] [TIFF OMITTED] T1649.057

[GRAPHIC] [TIFF OMITTED] T1649.058

[GRAPHIC] [TIFF OMITTED] T1649.059

[GRAPHIC] [TIFF OMITTED] T1649.060

[GRAPHIC] [TIFF OMITTED] T1649.061

[GRAPHIC] [TIFF OMITTED] T1649.062

[GRAPHIC] [TIFF OMITTED] T1649.063

[GRAPHIC] [TIFF OMITTED] T1649.064

[GRAPHIC] [TIFF OMITTED] T1649.065

[GRAPHIC] [TIFF OMITTED] T1649.066

[GRAPHIC] [TIFF OMITTED] T1649.067

[GRAPHIC] [TIFF OMITTED] T1649.068

[GRAPHIC] [TIFF OMITTED] T1649.069

[GRAPHIC] [TIFF OMITTED] T1649.070

[GRAPHIC] [TIFF OMITTED] T1649.071

[GRAPHIC] [TIFF OMITTED] T1649.072

[GRAPHIC] [TIFF OMITTED] T1649.073

[GRAPHIC] [TIFF OMITTED] T1649.074

[GRAPHIC] [TIFF OMITTED] T1649.075

[GRAPHIC] [TIFF OMITTED] T1649.076

[GRAPHIC] [TIFF OMITTED] T1649.077

[GRAPHIC] [TIFF OMITTED] T1649.078

[GRAPHIC] [TIFF OMITTED] T1649.079

[GRAPHIC] [TIFF OMITTED] T1649.080

[GRAPHIC] [TIFF OMITTED] T1649.081

[GRAPHIC] [TIFF OMITTED] T1649.082

[GRAPHIC] [TIFF OMITTED] T1649.083

[GRAPHIC] [TIFF OMITTED] T1649.084

[GRAPHIC] [TIFF OMITTED] T1649.085

[GRAPHIC] [TIFF OMITTED] T1649.086

[GRAPHIC] [TIFF OMITTED] T1649.087

[GRAPHIC] [TIFF OMITTED] T1649.088

[GRAPHIC] [TIFF OMITTED] T1649.089

[GRAPHIC] [TIFF OMITTED] T1649.090

[GRAPHIC] [TIFF OMITTED] T1649.091

[GRAPHIC] [TIFF OMITTED] T1649.092

[GRAPHIC] [TIFF OMITTED] T1649.093

[GRAPHIC] [TIFF OMITTED] T1649.094

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            January 27, 2004



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T1649.095

[GRAPHIC] [TIFF OMITTED] T1649.096

[GRAPHIC] [TIFF OMITTED] T1649.097

[GRAPHIC] [TIFF OMITTED] T1649.098

[GRAPHIC] [TIFF OMITTED] T1649.099

      
=======================================================================


                         QUESTIONS AND ANSWERS

                            January 27, 2004



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T1649.100

[GRAPHIC] [TIFF OMITTED] T1649.101

[GRAPHIC] [TIFF OMITTED] T1649.102

[GRAPHIC] [TIFF OMITTED] T1649.103

[GRAPHIC] [TIFF OMITTED] T1649.104

[GRAPHIC] [TIFF OMITTED] T1649.105

[GRAPHIC] [TIFF OMITTED] T1649.106

[GRAPHIC] [TIFF OMITTED] T1649.107

[GRAPHIC] [TIFF OMITTED] T1649.108

[GRAPHIC] [TIFF OMITTED] T1649.109

[GRAPHIC] [TIFF OMITTED] T1649.110

[GRAPHIC] [TIFF OMITTED] T1649.111

[GRAPHIC] [TIFF OMITTED] T1649.112

[GRAPHIC] [TIFF OMITTED] T1649.113

[GRAPHIC] [TIFF OMITTED] T1649.114

[GRAPHIC] [TIFF OMITTED] T1649.115

[GRAPHIC] [TIFF OMITTED] T1649.116

[GRAPHIC] [TIFF OMITTED] T1649.117

[GRAPHIC] [TIFF OMITTED] T1649.118

[GRAPHIC] [TIFF OMITTED] T1649.119

[GRAPHIC] [TIFF OMITTED] T1649.120

[GRAPHIC] [TIFF OMITTED] T1649.121

[GRAPHIC] [TIFF OMITTED] T1649.122

[GRAPHIC] [TIFF OMITTED] T1649.123

[GRAPHIC] [TIFF OMITTED] T1649.124

[GRAPHIC] [TIFF OMITTED] T1649.125

                                 <all>

</pre></body></html>
